<html>
<title> - COMPREHENSIVE IMMIGRATION REFORM: IMPACT OF IMMIGRATION ON STATES AND LOCALITIES</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 COMPREHENSIVE IMMIGRATION REFORM: IMPACT OF IMMIGRATION ON STATES AND 
                               LOCALITIES

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON IMMIGRATION,
                CITIZENSHIP, REFUGEES, BORDER SECURITY,
                         AND INTERNATIONAL LAW

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 17, 2007

                               __________

                           Serial No. 110-28

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov


                              -------

                     U.S. GOVERNMENT PRINTING OFFICE

35-452 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001


































                       COMMITTEE ON THE JUDICIARY

                 JOHN CONYERS, Jr., Michigan, Chairman
HOWARD L. BERMAN, California         LAMAR SMITH, Texas
RICK BOUCHER, Virginia               F. JAMES SENSENBRENNER, Jr., 
JERROLD NADLER, New York                 Wisconsin
ROBERT C. SCOTT, Virginia            HOWARD COBLE, North Carolina
MELVIN L. WATT, North Carolina       ELTON GALLEGLY, California
ZOE LOFGREN, California              BOB GOODLATTE, Virginia
SHEILA JACKSON LEE, Texas            STEVE CHABOT, Ohio
MAXINE WATERS, California            DANIEL E. LUNGREN, California
MARTIN T. MEEHAN, Massachusetts      CHRIS CANNON, Utah
WILLIAM D. DELAHUNT, Massachusetts   RIC KELLER, Florida
ROBERT WEXLER, Florida               DARRELL ISSA, California
LINDA T. SANCHEZ, California         MIKE PENCE, Indiana
STEVE COHEN, Tennessee               J. RANDY FORBES, Virginia
HANK JOHNSON, Georgia                STEVE KING, Iowa
LUIS V. GUTIERREZ, Illinois          TOM FEENEY, Florida
BRAD SHERMAN, California             TRENT FRANKS, Arizona
TAMMY BALDWIN, Wisconsin             LOUIE GOHMERT, Texas
ANTHONY D. WEINER, New York          JIM JORDAN, Ohio
ADAM B. SCHIFF, California
ARTUR DAVIS, Alabama
DEBBIE WASSERMAN SCHULTZ, Florida
KEITH ELLISON, Minnesota

            Perry Apelbaum, Staff Director and Chief Counsel
                 Joseph Gibson, Minority Chief Counsel
                                 ------                                

          Subcommittee on Immigration, Citizenship, Refugees, 
                 Border Security, and International Law

                  ZOE LOFGREN, California, Chairwoman

LUIS V. GUTIERREZ, Illinois          STEVE KING, Iowa
HOWARD L. BERMAN, California         ELTON GALLEGLY, California
SHEILA JACKSON LEE, Texas            BOB GOODLATTE, Virginia
MAXINE WATERS, California            DANIEL E. LUNGREN, California
MARTIN T. MEEHAN, Massachusetts      J. RANDY FORBES, Virginia
WILLIAM D. DELAHUNT, Massachusetts   LOUIE GOHMERT, Texas
LINDA T. SANCHEZ, California
ARTUR DAVIS, Alabama
KEITH ELLISON, Minnesota

                    Ur Mendoza Jaddou, Chief Counsel
                    George Fishman, Minority Counsel




























                            C O N T E N T S

                              ----------                              

                              MAY 17, 2007

                           OPENING STATEMENT

                                                                   Page
The Honorable Zoe Lofgren, a Representative in Congress from the 
  State of California, and Chairwoman, Subcommittee on 
  Immigration, Citizenship, Refugees, Border Security, and 
  International Law..............................................     1
The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, and Chairman, Committee on the 
  Judiciary......................................................     3

                               WITNESSES

The Honorable Dennis P. Zine, Councilman, City of Los Angeles, 
  National League of Cities
  Oral Testimony.................................................     5
  Prepared Statement.............................................     8
The Honorable John Andrews, former President of the Colorado 
  State Senate
  Oral Testimony.................................................    13
  Prepared Statement.............................................    15
The Honorable Sharon Tomiko Santos, Washington State House of 
  Representatives, National Conference of State Legislatures
  Oral Testimony.................................................    22
  Prepared Statement.............................................    24
Mr. Stephen Appold, Ph.D., Kenan Institute of Private Enterprise, 
  University of North Carolina at Chapel Hill
  Oral Testimony.................................................    60
  Prepared Statement.............................................    62
Ms. Audrey Singer, Ph.D., Immigration Fellow, Metropolitan Policy 
  Program, The Brookings Institution
  Oral Testimony.................................................    75
  Prepared Statement.............................................    77
Ms. Anne Morrison Piehl, Ph.D., Department of Economics & Program 
  in Criminal Justice, Rutgers, The State University of New 
  Jersey
  Oral Testimony.................................................    81
  Prepared Statement.............................................    84
Ms. Deborah A. Santiago, Ph.D., Vice President for Policy and 
  Research, Excelencia in Education
  Oral Testimony.................................................    91
  Prepared Statement.............................................    94
Mr. Robert Rector, Senior Research Fellow, The Heritage 
  Foundation
  Oral Testimony.................................................    99
  Prepared Statement.............................................   101

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Prepared Statement of the Honorable Zoe Lofgren, a Representative 
  in Congress from the State of California, and Chairwoman, 
  Subcommittee on Immigration, Citizenship, Refugees, Border 
  Security, and International Law................................     2
Prepared Statement of the Honorable John Conyers, Jr., a 
  Representative in Congress from the State of Michigan, and 
  Chairman, Committee on the Judiciary...........................     3

                                APPENDIX
               Material Submitted for the Hearing Record

Prepared Statement of the Honorable Steve King, a Representative 
  in Congress from the State of Iowa, and Ranking Member, 
  Subcommittee on Immigration, Citizenship, Refugees, Border 
  Security, and International Law................................   125
Prepared Statement of the Honorable Sheila Jackson Lee, a 
  Representative in Congress from the State of Texas, and Member, 
  Subcommittee on Immigration, Citizenship, Refugees, Border 
  Security, and International Law................................   126
Prepared Statement of the Honorable Janet Napolitano, Governor of 
  the State of Arizona, on ``Comprehensive Immigration Reform: 
  Impact of Immigration on States and Localities,'' submitted by 
  the Honorable Zoe Lofgren, Chairwoman, Subcommittee on 
  Immigration, Citizenship, Refugees, Border Security, and 
  International Law..............................................   128
``The Fiscal Impact of Immigration Reform: The Real Story,'' by 
  Daniel Griswold, Director, Center for Trade Policy Studies, 
  Cato Institute, May 21, 2007...................................   134
Letter from the National Association of Counties and the National 
  League of Cities...............................................   138
Prepared Statement of the Fair Immigration Reform Movement.......   139
Prepared Statement of the Honorable Steve DeBenedittis, Mayor, 
  the Town of Herndon, VA........................................   141
``Dollars without Sense: Underestimating the Value of Less-
  Educated Workers,'' by Walter A. Ewing, Ph.D. and Benjamin 
  Johnson, a policy brief of the Immigration Policy Center.......   144




























 
 COMPREHENSIVE IMMIGRATION REFORM: IMPACT OF IMMIGRATION ON STATES AND 
                               LOCALITIES

                              ----------                              


                         THURSDAY, MAY 17, 2007

                  House of Representatives,
Subcommittee on Immigration, Citizenship, Refugees, 
             Border Security, and International Law
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 4:06 p.m., in 
Room 2237, Rayburn House Office Building, the Honorable Zoe 
Lofgren (Chairwoman of the Subcommittee) presiding.
    Present: Representatives Lofgren, Gutierrez, Jackson Lee, 
Conyers, and King.
    Staff present: Ur Mendoza Jaddou, Majority Chief Counsel; 
R. Blake Chisam, Majority Counsel; George Fishman, Minority 
Counsel; and Benjamin Staub, Professional Staff Member.
    Ms. Lofgren. Let me first apologize for being a full hour 
late. The Subcommittee on Immigration, Citizenship, Refugees, 
Border Security, and International Law will come to order.
    As I have explained to our witnesses, the full Committee 
was in a markup downstairs, and the markup seemed to go on a 
little bit longer than we had planned. And then, of course, as 
soon as we were through, the House of Representatives called us 
over for a vote. So we will proceed as quickly as possible.
    This is the 10th hearing we have had on comprehensive 
immigration reform. And we have studied--I will put my full 
statement in the record, but we have studied a variety of 
topics related to comprehensive immigration reform, and today 
we are going to turn our attention to the cost of immigration 
to the States and localities.
    In general, most scholars tend to agree that immigrants, on 
the whole, benefit the U.S. economy and American culture, and 
the Subcommittee's previous hearings have addressed these 
issues in detail. However, despite the overall benefits of 
immigration to the Nation, most scholars tend to concur that 
illegal immigration can have deliterious effects on States and 
localities, and it is those effects that we will address during 
this hearing.
    We have a quorum to proceed. Ordinarily I would not proceed 
with the absence of the Ranking Member, but I have been advised 
that at least two of the witnesses have to leave to catch 
airplanes, so I am sure that Mr. King would not object to our 
allowing those two witnesses in particular to begin with their 
testimony.
    I see also our Chairman, Mr. Conyers, is here.
    We realize that at this point a number of States and 
localities have taken legislative action themselves about the 
issue of immigration all over the board. And clearly the issue 
of immigration is a Federal issue, and the fact that localities 
and States are stepping forward I think is another indicator 
that it is really time for the Federal Government to step up to 
the bat and take action.
    The National League of Cities, the Nation's oldest and 
largest organization devoted to strengthening and promoting 
cities, shares these frustrations, and we will hear from them.
    When Mr. King arrives, obviously, he will have his 
statement in the record.
    [The prepared statement of Ms. Lofgren follows:]
 Prepared Statement of the Honorable Zoe Lofgren, a Representative in 
Congress from the State of California, and Chairwoman, Subcommittee on 
Immigration, Citizenship, Refugees, Border Security, and International 
                                  Law
    I would like to welcome the Immigration Subcommittee Members, our 
witnesses, and members of the public to the Subcommittee's eleventh 
hearing on comprehensive immigration reform.
    We started our series of hearings at Ellis Island where we examined 
the need for comprehensive immigration reform to secure our borders, to 
address economic and demographic concerns, and we reviewed our nation's 
rich immigrant history. We have studied immigration reform from 1986 
and 1996 in an effort to avoid the mistakes of the past. We've 
considered the problems with and proposed solutions for our current 
employment and worksite verification system. In light of recent 
proposals by the White House to eliminate family priorities in 
immigration and replace them with a completely new and untested point 
system, we studied the contributions of family immigrants to America 
and various immigration point systems used around the world. And just 
yesterday, we had a hearing to explore integration of immigrants and 
their children into the United States. There we learned that if 
creating new Americans is a goal of our immigration policy, we should 
ensure that comprehensive immigration reform reflects that objective. 
Purely temporary worker programs with little opportunity for those who 
contribute to our economy to become full members of the country that 
they've helped to build run contrary to the goal of Americanism and 
assimilation, because such programs relegate people to a life in a 
permanent underclass.
    Today we turn our attention to the costs of immigration to states 
and localities. In general, most scholars tend to agree that 
immigrants, on the whole, benefit the U.S. economy and American 
culture. The Subcommittee's previous hearings have addressed these 
issues in detail.
    Despite the overall benefits of immigration to the nation, most 
scholars tend to concur that illegal immigration can have deleterious 
effects on states and localities. It is those effects we will address 
during this hearing.
    The witnesses today will explain that most scholars agree that 
illegal immigrants do create certain fiscal costs to taxpayers. Where 
there are studies--and they are varied because of the lack of accurate 
data--the costs are actually much smaller than many may assume. Still, 
the costs to taxpayers appear to be fairly minimal, costing the average 
taxpayer less than $200 per year.
    These costs relate to local expenditures on schools, hospitals, and 
criminal incarceration, disproportionately accrued by states and 
localities. The federal government is a greater beneficiary of the tax 
revenues.
    Many states and localities are frustrated about this inequality of 
benefits between them and the federal government and the lack of 
federal action to solve the illegal immigration issue. According to the 
National Conference of State Legislatures:

        As of April 13, 2007, state legislators in all of the 50 states 
        had introduced at least 1,169 bills and resolutions related to 
        immigration or immigrants and refugees. This is more than twice 
        the total number of introduced bills (570) in 2006.

        Up to this point in the 2007 legislative sessions, 18 states 
        (Arkansas, Colorado, Hawaii, Idaho, Indiana, Kansas, Kentucky, 
        Maryland, Montana, North Dakota, Nebraska, New Mexico, New 
        York, South Dakota, Utah, Virginia, West Virginia and Wyoming) 
        have enacted at least 57 bills in this policy arena, already 
        \2/3\ of the total number of laws enacted in 2006. State 
        legislatures have also adopted at least 19 resolutions and 
        memorials in their 2007 sessions. Most state legislatures 
        remain in session, an indication that it is quite likely that 
        there will be even more activity this year.

    The National League of Cities (NLC), the nation's oldest and 
largest organization devoted to strengthening and promoting cities, 
shares the same frustrations as NCSL. The NLC recognizes that local 
governments are caught in the middle of the economic impacts of illegal 
immigration. As the federal government controls the flow and regulation 
of immigration, the responsibility of integrating immigrants and 
providing services such as social services, health care and education, 
lies within the local governments. It is the local governments who are 
bearing the financial impact of both legal and illegal immigration.
    Given these local concerns regarding illegal immigration, the time 
is now for Congress to address comprehensive immigration reform.

    Ms. Lofgren. Mr. Conyers, would you like to make an opening 
statement? We do have two witnesses who have to run for 
airports. Would you like to just enter your opening statement?
    Mr. Conyers. Before I put it in the record, I just want to 
emphasize that most of us realize that States do not want to 
shift the burden of enforcement to them.
    And, secondly, this is not just an enforcement problem, the 
reform of immigration, that this maybe ninth hearing has to do 
with, and that the immigration debate highlights the need for 
universal health care.
    We know that immigrants are anything but a burden. It has 
been documented over and over. But I think that one of the 
responsibilities of this important series of hearings by the 
Immigration Subcommittee of the Judiciary Committee is that we 
analyze the cost, the benefits, and the opportunities of 
working together.
    I would like my complete statement to be entered into the 
record, and I thank the gentlelady, the Chairwoman.
    [The prepared statement of Chairman Conyers follows:]
Prepared Statement of the Honorable John Conyers, Jr., a Representative 
in Congress from the State of Michigan, and Chairman, Committee on the 
                               Judiciary
    In this hearing, we will delve a little deeper into the issue of 
whether immigration is a net positive for our communities.
    There are some things that we know going into this debate.
    First, we know that the States do not want us to shift the burden 
of enforcement to them. Nor should we. This is a Federal 
responsibility, and we must rise to the challenge.
    Second, this is not just an enforcement issue. In yesterday's 
hearing, we agreed that immigrants should be brought into the American 
social fabric through programs such as language and civics classes. 
Those programs do not happen on their own. Those programs do not happen 
on their own, and civic engagement, education, and opportunity 
shouldn't just be for immigrants, but for everyone. We need to support 
the States and localities to provide these critical services.
    Third, we know that the immigration debate highlights the need for 
universal health care. For example, a Health Affairs Journal study 
found that undocumented immigrants are not the cause of over-crowded 
emergency departments and higher health care costs. Rather, the problem 
is that more and more Americans lack health care coverage. We need to 
address this and take the burden of our local health systems.
    Finally, we know that immigrants are anything but a burden. As the 
Economic Research Service of the Department of Agriculture states on 
this point:

        ``[The infusion of Hispanic immigrants] has helped to stem 
        decades of population decline in some States, revitalizing many 
        rural communities with new demographic and economic vigor. Such 
        population infusions may affect the allocation of State and 
        Federal program funding to rural areas for education, health, 
        other social services, and infrastructure projects.''

    In fact, these infusions have widely been interpreted as impacting 
Congressional redistricting in some states. Former Governor Tom Vilsak 
was so struck by this issue and by the need to ensure future stability 
that he pursued a strategy of recruiting immigrants to come to Iowa.
    Immigration presents us with costs, benefits, and opportunities. 
Working together, we can meet the challenges and reap the rewards of 
these new Americans.

    Ms. Lofgren. Without objection. And thank you so much, Mr. 
Conyers, for being here today.
    Without objection, the testimony of Governor Janet 
Napolitano, the governor of Arizona, will also be submitted for 
the record.
    [The prepared statement of Governor Napolitano is inserted 
in the Appendix.]
    Ms. Lofgren. I would like to introduce our witnesses.
    Here we have the Honorable Sharon Tomiko Santos, who is a 
Representative in the Washington State House of 
Representatives. Seattle first elected Representative Santos to 
the Washington House in 1998. She now serves as the majority 
whip. She is a leader on education, health care, and affordable 
housing, and she served as an NGO delegate to the United 
Nations' fourth World Conference on Women and is a recipient of 
the Martin Luther King, Jr. ``Keeping the Dream Alive Award.'' 
She earned her bachelor's degree from Evergreen State College 
and her master's degree from Northeastern University.
    I am also pleased to welcome the Honorable Dennis Zine, a 
friend from California, a member of the City Council, 
representing Los Angeles's 3rd District. Councilman Zine has 
worked for nearly 4 decades in public service, beginning as an 
officer in the Los Angeles Police Department 37 years ago. In 
addition to his duties as Councilman, Mr. Zine volunteers with 
organizations such as Mothers Against Drun,k Driving, the Haven 
Hills Home for Battered Women and the Jewish Home for Aging. He 
is the treasurer for the Independent Cities Association and 
represents Los Angeles on the National League of Cities Public 
Safety and Crime Prevention Steering Committee.
    I am also pleased to introduce Dr. Stephen Appold, a 
scholar at the Frank Hawkins Kenan Institute of Private 
Enterprise at the University of North Carolina's Kenan-Flagler 
Business School. Prior to his post at UNC, he taught at 
Carnegie-Mellon University and the National University of 
Singapore. He also taught in the executive education program 
for labor unionists in the Ong Teng Cheong Institute of Labor 
Studies in Singapore. Dr. Appold received a bachelor's and 
master's degree from the State University of New York Stony 
Brook and a master's and doctoral degree from the University of 
North Carolina.
    And, finally, I am pleased to open the minority's witness 
on the panel, the Honorable John Andrews, former President of 
the Colorado State Senate. Former Senator Andrews now serves as 
a senior fellow at the Claremont Institute in Denver. He served 
as a State Senator between 1998 and 2005, leaving on a term 
limit. Prior to his distinguished tenure in public office, he 
chaired the State policy network and directed TCI Cable News. 
After graduating from Principia College, former Senator Andrews 
was also a U.S. Navy submarine officer.
    Each of your written statements will be made a part of the 
record in its entirety. We have asked each of you to summarize 
your testimony in 5 minutes, and that little machine in the 
front will be your guide. When the yellow light goes on, it 
means you have a minute left.
    I am going to ask first Mr. Zine to speak. He has to leave 
at 4:30 to catch a plane. And then I think Mr. Andrews will be 
following shortly, and then we will go to the other witnesses 
who do not have as urgent situations.
    Mr. Zine?

TESTIMONY OF THE HONORABLE DENNIS P. ZINE, COUNCILMAN, CITY OF 
             LOS ANGELES, NATIONAL LEAGUE OF CITIES

    Mr. Zine. Thank you. Good afternoon. Thank you, Madam Chair 
and Members of the Subcommittee.
    I am Dennis P. Zine, council member from the City of Los 
Angeles, here today on behalf of the National League of Cities 
as a member of the board of directors for the National League 
of Cities and the Chairperson of the Immigration Task Force for 
the National League of Cities.
    The Task Force was established 2 years ago to deal with the 
12-plus million undocumented people in the country.
    I have been with the L.A. City Council for 6 years. Before 
that, I was with the Los Angeles Police Department as an 
officer and a supervisor for over 30 years. I am also the son 
of Lebanese immigrants, so I am well aware of the impact of 
immigration from the perspective of law enforcement and also a 
vulnerable population, and as someone responsible for the 
management of a major city, the City of Los Angeles.
    The National League of Cities is pleased to have this 
opportunity to speak to you this afternoon to present our views 
on the impact of immigration on America's cities and towns and 
the need for comprehensive Federal immigration reform 
legislation. The absence of a functional Federal system 
regulating an orderly flow of immigration has resulted in 
financial, cultural, and political strains in communities 
across America.
    Local governments are caught in the middle of this debate 
with no control over the flow and regulation of immigration but 
with the responsibilities of integrating immigrants into our 
communities and providing the services necessary for stable 
neighborhoods.
    Recent headlines highlighting new restrictive laws are the 
depressing example of the stress local governments face in 
dealing with the fast-growing immigration populations and 
finding the best way to balance the needs of newcomers with our 
established residents.
    As immigrants, both legal and illegal, flood our 
communities, more than 90 cities and counties have proposed, 
passed or rejected laws prohibiting landlords from leasing to 
undocumented immigrants, penalizing businesses that employ 
undocumented workers or training local police to enforce 
Federal immigration laws. You may have heard of the 
confrontation between the Los Angeles Police Department and the 
pro-immigration groups on May 1 in Los Angeles. It was not a 
pretty picture and the LAPD does not even enforce illegal entry 
laws.
    While immigrants have strengthened our country and our 
communities in numerous ways, many communities are straining to 
find the right approach in such an unsettled environment over 
immigration and Federal immigration policy.
    In addition to cultural impacts on the community, the 
responsibility for providing social services, education and 
health care is falling on State and local governments, which 
are feeling the financial impact of both legal and illegal 
immigrants in cities and towns. California has long been a 
gateway for new immigrants. However, my colleagues in new 
destination States now face many of the same challenges that we 
have encountered for many, many years.
    Despite some cities receiving the headlines for their 
restrictive policies, many local governments across the Nation 
are working hard to integrate immigrants without regard to 
their immigration status into their communities. Discussions 
with local officials across the Nation point to positive 
impacts on communities by reversing population declines, 
stabilizing or increasing school enrollments, local industrial 
employers relying heavily on immigrant populations to take jobs 
that would otherwise go unfilled.
    Undocumented immigrants also contribute significantly to 
spending power of local economies. Sales tax is charged to all 
who purchase goods and products in our stores. In general, most 
of these residents are hardworking people trying to provide for 
their families and build a brighter future for their children. 
Many communities have established welcome centers, held 
diversity events, and undertaken other activities to make the 
new residents feel that they are a valued part of the 
community.
    Local law enforcement personnel find it difficult if not 
impossible to build trust among undocumented populations and 
many immigrants are reluctant to report crimes or cooperate in 
criminal investigations with the police for fear that their 
undocumented status will be uncovered and they may face 
prosecution and deportation. A lack of valid documentation also 
leaves immigrants vulnerable to exploitation by unscrupulous 
individuals and makes it easer for the small minority of 
immigrants involved in criminal activity to hide and even 
exploit others with impunity.
    Local government's primary concern is to protect the safety 
of all residents by building trust among all populations with 
our cities, regardless of immigrant status. Families are forced 
to live underground, unable to get drivers' licenses or car 
insurance in most States, unlikely to obtain health insurance, 
and afraid to report crimes to the police.
    Because immigrants, whether legal or illegal, generally 
live or work in our cities and towns, new legislation to 
significantly improve the Federal immigration system is a 
critical issue for the National League of Cities. National 
League of Cities asks you to act quickly to enact comprehensive 
reform to the current immigration laws to bring some sense and 
reasonableness to America's immigration policy.
    We are talking about comprehensive immigration reform 
legislation which should include the following: enforcement of 
existing laws, including strong worksite enforcement and 
accurate worker verification; increased staff and resources at 
the borders; increased enforcement against those individuals 
who initially enter the country illegally with student, tourist 
or business visas but remain in this country after their visas 
expire; effective enforcement of the Federal law that makes it 
illegal to knowingly hire and employ undocumented immigrants 
and to penalize employers significantly who continue to violate 
the law; better verification system, including a universal, 
reliable, effective, secure, nondiscriminatory identification 
verification system using the top technology; better avenues 
for legal immigration, including legal means of immigration of 
foreign nationals who want to work here temporarily, as well as 
those who desire to become legal, permanent residents, gain 
citizenship; and a pathway to citizenship for undocumented 
immigrants living in the United States through payment of 
appropriate fees, back taxes, background checks, absence of 
criminal gang activity, work history, and the ability to meet 
English and civic requirements; funding to help alleviate the 
impact on communities, including public safety, language, 
health education.
    Border security along with employee verification and other 
reasonable measures will bring about safety and security for 
the American people and at the same time assist those desiring 
to achieve the American dream which we all enjoy.
    And in conclusion, this isn't a partisan issue, it is 
across all political lines and impacts hundreds of communities 
across America. The solution rests in your hands. We implore 
you to act and finally resolve this.
    In conclusion, NLC looks forward to working with you, and I 
thank you for your time. Five minutes and seventeen seconds. 
[Laughter.]
    [The prepared statement of Mr. Zine follows:]
                  Prepared Statement of Dennis P. Zine



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Ms. Lofgren. Thank you, Councilman.
    Mr. Conyers. Madam Chairman, is the gentleman going to 
leave before the witnesses have concluded their presentations?
    Mr. Zine. Yes.
    Ms. Lofgren. I think he is going to have to. And also Mr. 
Andrews.
    Mr. Zine. Yes, Mr. Conyers.
    Mr. Conyers. Could I ask him to include subsequently in 
writing the incredible Los Angeles police riot that you 
referenced in your statement.
    And I would like to get a comment from a veteran law 
enforcement person as well as a distinguished Councilman: what 
is the effect of all of these raids and roundups on places in 
which likely immigrants may be?
    We have got a huge law enforcement problem going on as we 
speak, and you would be appropriate to help us sort that out.
    Mr. Zine. We have that, and that is one of the problems 
with no comprehensive reform. We have jurisdictions throughout 
the country that have decided to do it on their own. And as the 
Chair said, you have individual localities establishing their 
own rules and regulations in the absence of a Federal 
regulation.
    So we have, for example, in some counties in California, 
they do immigration enforcement. In Los Angeles, we don't. But 
you can't have this, ``I crossed this community into another 
community and we are going to be incarcerated because we don't 
have proper status in the country.''
    Mr. Conyers. So what about the Los Angeles police rioting 
on immigrants?
    Mr. Zine. Well, when that happened--see, we don't have a 
policy. We have what is called ``special number 40.'' We don't 
enforce the status of an individual in the country. We are 
banned from that through an order that has been in place in Los 
Angeles City for many years.
    But what happened in that particular situation is you had a 
demonstration, a May Day demonstration. There was a dispersal 
order after police were assaulted with some rocks and bottles, 
after a motorcycle supervisor was knocked off his motorcycle. 
So there was the command to disperse the crowd. And I will be 
the first to admit that the way they dispersed that crowed was 
not appropriate.
    Mr. Conyers. It wasn't premeditated?
    Mr. Zine. No, no, no. There was a scheduled demonstration, 
a May Day demonstration, which they annually have. This 
demonstration----
    Mr. Conyers. No. I mean the action of the police, was that 
premeditated?
    Mr. Zine. Well, I would hope not.
    Mr. Conyers. Well----
    Mr. Zine. And we are doing an investigation that is due the 
end of this month to bring all the facts forward. We know that 
that is not the typical procedure by any law enforcement 
agency, when you have members of the media, women and children, 
that get involved in this situation with the dispersal of a 
crowd, but----
    Mr. Conyers. Finally--Madam Chair, you have been very 
generous--do you know the record of the Los Angeles Police in 
terms of illegal activity and violence visited upon their 
citizenry? This isn't an isolated case.
    Mr. Zine. Well, the Los Angeles Police Department is under 
a Federal consent decree because of situations that have taken 
place in the past, and we hope with this administration and 
Antonio Villaraigosa as our mayor, this city council, which I 
am a proud member of, Bernard Parks, former chief of police, is 
a council member, we are rectifying the situation that has 
been--shall we say some of the sad situations that have taken 
place in Los Angeles City in the past.
    Ms. Lofgren. Thank you, Mr. Conyers.
    I wonder if we could ask Mr. Andrews to deliver his 
testimony and then we might have just a few minutes left to 
direct questions to these two members, and then they will have 
to run.

 TESTIMONY OF THE HONORABLE JOHN ANDREWS, FORMER PRESIDENT OF 
                   THE COLORADO STATE SENATE

    Mr. Andrews. Madam Chairman, thanks for your courtesy in 
taking me out of order.
    Madam Chair, Mr. Conyers, Members of the Committee, it is 
an honor to speak with you this afternoon.
    I am John Andrews. I was President of the Colorado Senate, 
2003 to 2005. Our western State is not on the frontline of 
America's southern border, but we are a second-line State. We 
have been identified as a gathering and transmission point for 
a massive mission point for a massive flow of people that have 
entered this country illegally.
    I bring you from Colorado an appeal to build a fence and 
secure the border first and foremost. I appeal to you not to 
reward lawbreakers with green cards and citizenship.
    People in Colorado are self-reliant in their way of life, 
optimistic in their outlook, welcoming to newcomers from 
anywhere in the world. We are not complainers, and we are not 
alarmists. But we know a problem when we see one, and we expect 
a bargain to be kept.
    Right now millions of Coloradans see the invasion of 
illegal aliens as an urgent problem for our State. We attribute 
that problem to the Federal Government's failure to keep its 
bargain with Americans everywhere for secure borders and the 
rule of law. Amnesty for illegal aliens was supposed to fix 
this problem 20 years ago. It did not.
    Estimates today put the illegal alien population of 
Colorado at somewhere between 250,000 to 750,000 people, up to 
15 percent of the entire population. Our schools, our health 
care system, and our criminal justice system are groaning under 
this burden. Our common culture and common language are 
fraying. We feel Washington has let us down. It seems Congress 
and the White House just don't care.
    Most of those individuals who broke the law to come here or 
stay here are probably good people with good motives. But we 
can't be sure. Some may be enemy sleepers with deadly intent. 
Nor can we be sure how many of them are actually here, or what 
countries they came from.
    But I can assure you, Madam Chairman, their country of 
origin does not matter to Coloradans. What matters is their 
disruptive impact on our State, disrupting self-government, 
disrupting safe neighborhoods, disrupting affordable public 
services.
    Feeling betrayed by Federal inaction, Coloradans last year 
started a petition to protect affordable public services by 
restricting them to legal residents only, except in emergencies 
or by Federal mandate. That petition was called Defend Colorado 
Now. I was one of four co-chairmen, Democrats and Republicans, 
Anglos and Hispanics, helping lead that campaign.
    A study done for our group, based on documented statistics 
in the public record, found that illegal aliens were costing 
Colorado taxpayers over $1 billion a year through the extra 
burden on services and that they were reducing family paychecks 
by another $2 billion a year through lower wages. The entire 
study is available online and I have provided that citation for 
the Committee's reference.
    In 2005, Colorado voters had approved a ballot issue to 
raise taxes by about $1 billion a year, which wouldn't have 
been necessary if the Federal Government had kept its bargain 
for secure borders. Then in 2006, with that petition, we set 
out to do what we could about the problem ourselves.
    You are absolutely right, Madam Chairman. It can't be 
solved State by State.
    Our petition happened to fall short, but it did push the 
legislature into passing some of the toughest ID requirements 
and workplace sanctions of any State.
    The legislature also took an extraordinary step. It asked 
voters to approve a lawsuit against the Attorney General of the 
United States, as if Mr. Gonzales didn't have enough on his 
hands, which demands enforcement of Federal immigration laws in 
order to give us some budgetary relief in the areas of health 
care, law enforcement, criminal defense and incarceration, 
education. It passed by a landslide and the Colorado lawsuit is 
now in Federal court.
    We aren't holding our breath, but it shows the public 
impatience on this issue.
    I grew up in a Colorado mountain town called Buena Vista. 
This week there was a national news report alleging that 
radical Islamists have a paramilitary training camp at Buena 
Vista. I wonder if some of them are illegal aliens, similar to 
the Fort Dix cell that was recently broken up. That is the risk 
we take with an unsecured border in the middle of a global war.
    As the father of a Denver police officer, I have to take 
such threats seriously. One of my son's fellow officers, Donald 
Young, was brutally murdered by an illegal alien 2 years ago 
this month. My son has a T-shirt that says ``Never Forget.'' 
Coloradans won't forget, but we can't solve this problem 
without your help here in Congress.
    The help we need is for you to build the fence and secure 
the border, period. No amnesty. No so-called comprehensive 
solution for cheap votes and cheap labor. Just stop the 
invasion.
    Thank you for the opportunity to present our State's 
concerns.
    [The prepared statement of Mr. Andrews follows:]
                   Prepared Statement of John Andrews
    I'm John Andrews, former President of the Colorado Senate, now a 
senior fellow with the Claremont Institute. People in my state are 
self-reliant in their way of life, optimistic in their outlook, and 
welcoming to newcomers from anywhere in the world. We are not 
complainers, and we are not alarmists.
    But we know a problem when we see one, and we expect a bargain to 
be kept. Right now millions of Coloradans see the invasion of illegal 
aliens as an urgent problem for our state, and we attribute that 
problem to the federal government's failure to keep its bargain with 
Americans everywhere for secure borders and the rule of law.
    Amnesty for illegal aliens was supposed to fix this problem 20 
years ago. It did not. Estimates today put the illegal alien population 
of Colorado at somewhere between 250,000 to 750,000 people--as much as 
15 percent of the entire population.
    Our schools, our health care system, and our criminal justice 
system are groaning under this burden. Our common culture and common 
language are fraying. We feel that Washington has let us down. It seems 
Congress and the White House just don't care.
    Most of those individuals who broke the law to come here or stay 
here are probably good people with good motives. But we cannot be sure. 
Some may be enemy sleepers with deadly intent. Nor can we be sure how 
many of them are actually here, or what countries they came from.
    I can tell you that their country of origin does not matter at all 
to my fellow Coloradans. What matters is their disruptive impact on our 
state--disrupting self-government, disrupting safe neighborhoods, 
disrupting affordable public services.
    Feeling betrayed by federal inaction, Coloradans last year started 
a petition to protect affordable public services by restricting them to 
legal residents only, except in emergencies or by federal mandate. The 
petition was called Defend Colorado Now. I was one of four co-chairmen, 
Democrats and Republicans, Anglos and Hispanics, leading that campaign.
    A study done for our group, based on documented statistics in the 
public record, found that illegal aliens were costing state taxpayers 
over $1 billion a year through the extra burden on services--and 
reducing family paychecks by another $2 billion a year through lower 
wages. (See full study at www.defendcoloradonow.org.)
    In 2005, Colorado voters had approved a ballot issue to raise taxes 
by about $1 billion a year--which would not have been necessary if the 
federal government had kept its bargain for secure borders.
    In 2006 Coloradans set out to do what we could about the problem 
ourselves. Our petition fell short, but it did push the legislature 
into passing some of the toughest ID requirements and workplace 
sanctions of any state.
    The legislature also asked voters to approve a lawsuit against the 
US Attorney General, demanding enforcement of federal immigration laws 
in order to give us some budgetary relief in the areas of health care, 
law enforcement, criminal defense and incarceration, and education. It 
passed by a landslide and the Colorado lawsuit is now in federal court. 
We're not holding our breath, but it shows the public impatience on 
this issue.
    I grew up in a Colorado mountain town called Buena Vista. This week 
there was a national news report alleging that radical Islamists have a 
paramilitary training camp at Buena Vista. I wonder if some of them are 
illegal aliens, similar to the Fort Dix cell that was recently broken 
up. That's the risk we take with an unsecured border in the middle of a 
global war.
    As the father of a Denver police officer, I have to take such 
threats seriously. One of my son's fellow officers, Donald Young, was 
brutally murdered by an illegal alien two years ago this month. My son 
has a T-shirt that says ``Never Forget.'' Coloradans have not 
forgotten, but we can't solve this problem without your help in 
Congress.
    The help we need is for you to build the fence and secure the 
border, period. No amnesty for lawbreakers. No so-called comprehensive 
solution for cheap votes and cheap labor. Just stop the invasion.
    Thank you for the opportunity to present my state's concerns.

                               ATTACHMENT

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Ms. Lofgren. Thank you both very much.
    I know that you both indicated that you have to leave at 
4:30. We have questions, but we also don't want you to miss 
your planes, so if you need to leave at this point, we do 
understand.
    Mr. Andrews. I would be happy to take a few minutes, Madam 
Chair.
    Ms. Lofgren. I will begin the questioning.
    Let me ask Mr. Zine. It has been a pleasure to work with 
the City of Los Angeles and the National League of Cities. You 
note in your testimony that the National League ``opposes the 
conscription of local personnel to enforce Federal immigration 
laws and you urge us not to transfer responsibility of 
enforcing immigration laws to States or local government.''
    What do you think would be the consequences of doing that? 
What is your concern about the unintended consequence of having 
State and local governments enforce Federal immigration laws?
    Mr. Zine. The concern with that is that we don't have 
sufficient personnel to handle the routine calls for service. 
We are trying to get to 10,000 police officers in the City of 
Los Angeles. We have a 4 million person population. We are 
9,500 and we are struggling to recruit police officers.
    We don't have the personnel to handle our basic 
responsibilities. If we start doing immigration enforcement--
when I joined the police department in 1968, we did immigration 
enforcement. And we would find an individual who was illegal in 
this country, we would take them down to Immigration, they 
would take custody. The volume wasn't what it is today. It is 
really physically impossible with the limited resources we 
have.
    The other issue is, it breaks down that relationship we try 
to build with the immigrant populations. We speak over 130 
languages in the City of Los Angeles. If we start doing that 
with our police officers, we are going to break down whatever 
we have established in relationships community policing with 
many of the people who come here from Armenia, from many, many 
countries. It is not just one particular ethnic group.
    And the problem is that we don't have the personnel, we are 
going to break down whatever relationships we have established 
with these groups, and many of them are hardworking people 
trying to strive for that American dream.
    Ms. Lofgren. I am going to not use all of my time and allow 
the Ranking Member to ask his questions. We are doing an 
abbreviated set of questions so we can get to the others on the 
panel.
    Mr. King. Thank you, Madam Chair.
    Thank you for your testimony, both of you.
    Mr. Zine, first, as I listen to your testimony here, this 
thought occurs to me. You have quite a list of things that we 
need to do. Quite comprehensive in this list, and many of them 
have significant merit.
    I will take you back, though, to--I can't get past a 
question, it happens to me once in a while, if I can't resolve 
something on the road to somewhere, I have to go back and fix 
that spot. And so that piece that I don't comprehend is the 
comprehensive immigration reform proposal at its very base and 
foundation, and that is a recognition by I believe this panel 
and certainly a consensus of the witnesses that have been 
before it that if you legalize people that are currently here 
illegally, they will have access to more government services, 
not less. And the cost then to local government in particular 
increases significantly.
    So as I listen to your proposal for solutions, I would 
wonder why you want to have my burden on local government, at 
least so far as those benefits are concerned, rather than less, 
which would come from enforcement of the immigration law.
    Mr. Zine. What we are talking about is a buy-in to the 
system. We are talking about having to pay the taxes, having to 
pay the fees, having them legitimized within the system.
    What we have found is deportation doesn't work. People get 
deported and they come right back. So we are looking at 
realistically how do we deport 12 million people, what do we do 
with the children that are born here in America that we are now 
going to have to deal with.
    Mr. King. Mr. Zine, even though abbreviated, I still don't 
think I understand that in that you will have more burden on 
the local taxpayer on a per capita basis just by legalizing the 
people that are here. If they aren't going to move out of Los 
Angeles County, you are still going to have that burden, only 
it will be greater because they will have access to more 
services.
    So doesn't that put more burden on the people that are 
currently there?
    Mr. Zine. Well, they have access to all the services now, 
within the County of Los Angeles, the county hospitals, the 
education system. That is one of the problems that we have. 
They are already taking advantage of those systems and costing 
the taxpayers.
    Mr. King. I don't think we are going to agree on that.
    Mr. Zine. They are not excluded, in other words. They are 
not excluded from any of the basic services that we provide, 
whether it be education or hospital.
    Mr. King. But they are excluded from some Federal services, 
and that I will think you will acknowledge.
    Mr. Zine. But not local services.
    Mr. King. Thank you. That is your business down there, I 
guess.
    Let me ask you another question, then. You don't cooperate 
with Federal officials. You are a sanctuary city. And that is--
I think we understand the meaning of that term as I use it 
here. If we give you--grant you--or if you get your version of 
comprehensive immigration reform, would you then consider 
amending that ban on cooperating with Federal law enforcement 
officials and help us cooperate at the local level to enforce 
the new immigration law?
    Mr. Zine. Well, once we approach something that is 
realistic, that we see employer verification, if you are going 
to work, no matter what type of industry you are going to work 
in, you are going to have that verification, we would be more 
than happy to work in cooperative relationship to enforce that 
against the employer, against the employee, so we have 
something with some teeth. Right now we don't have anything.
    Mr. King. Will you gather information on the street as it 
came across to the officers, which is now prohibited?
    Mr. Zine. It is now prohibited, but once we have this--but, 
see, part of it is you have to be legitimate. The employer-
employee. Once we have reached that point, you have got to have 
it. We want enforcement. Then it would go to the police 
commission and go to the city leaders.
    Mr. King [continuing]. Officers on the street that know 
they are looking at people that are unlawfully present standing 
on the streets of Los Angeles today, and they are prohibited 
from engaging those people. Would you maintain that kind of a 
policy or would you cooperate with Federal law and help us, 
when we turn over the new coin?
    Mr. Zine. Once the new coin is turned over, then I am sure 
the policymakers would have a different approach. But let me 
say this about illegal immigration. An individual commits a 
crime in Los Angeles and they are illegal, we do enforce the 
immigration laws against people that are committing crimes.
    Mr. King. I understand that.
    Mr. Zine. We are not going out there and asking for 
identification. Once they commit a crime, then we use all the 
resources of the Federal, local and State governments. But that 
is another policy matter that would come before us for review.
    I would support something like that because we are not 
going to have it without teeth and cooperation.
    Mr. King. Thank you.
    I yield back.
    Ms. Lofgren. Thank you.
    Mr. Gutierrez?
    Mr. Gutierrez. Thank you very much.
    I thank the witnesses for their testimony.
    In Chicago we have Michigan Avenue. It is know as ``The 
Magnificent Mile.'' But there is a street called 26th Street in 
Little Village. It is not called ``Magnificent 26th Street.'' 
But it collects second only to ``The Magnificent Mile'' in 
sales tax, the second street in the whole city of Chicago. It 
is a two-mile long, immigrant community rebuilding that 
community and bringing sales tax there. I just wanted to make 
that point very quickly.
    I wanted to ask Mr. Andrews, in Colorado, are undocumented 
or as you refer to them illegal workers exempted from paying 
sales tax when they make a purchase at a local store?
    Mr. Andrews. Of course not, Congressman.
    Mr. Gutierrez. When they pay their cable bill, are they 
exempted from the tax that is imposed on the cable bill?
    Mr. Andrews. Not at all.
    Mr. Gutierrez. No. How about when they pay their electric 
bill and we tax their electric bill?
    Mr. Andrews. Not at all.
    Mr. Gutierrez. Gas bill? I guess they are not exempted from 
that bill. Let me see what else. I am just trying to think of 
what taxes I pay. Let me see. My phone bill and my cell phone 
bill has Federal, state and local taxes on my phone bill, both 
my phone bill at my home and my cell phone bill. I pay property 
taxes. I imagine you know that they own property, they own 
homes. So they are not exempted in the state of Colorado from 
paying property taxes. I imagine you agree with that?
    Mr. Andrews. I see where you are going, Congressman----
    Mr. Gutierrez. I just want an answer to the question. Are 
they exempted from paying property taxes?
    Mr. Andrews. There is no exemption that I know of for any 
tax.
    Mr. Gutierrez. Gasoline taxes, when they fill their tank up 
with gasoline? Tobacco taxes, if they have that particular 
vice? Liquor taxes, if they have that one? If they open a 
business, I imagine they are not exempted from paying fees to 
the city or the State. And they are not exempted from paying 
Federal income tax, State, local tax, or any city tax. They are 
really not exempted from any of the taxes.
    So these 250 to 750, this wide range of people that we 
don't know how many there are, are not exempted from paying any 
of those taxes.
    Mr. Andrews. To the extent, sir, that they are on the 
books. And their employment, if some of them are of the books, 
obviously they are not being taxed.
    Mr. Gutierrez. I knew you were going to go to that point, 
Mr. Andrews. But the employer is required to deduct from their 
payroll. And did you know, Mr. Andrews, that there are over $30 
billion in unaccounted, unidentified, can't identify who the 
people are, in the Social Security Trust Fund? Over $30 
billion.
    Do you know that every year tens of thousands of ``no 
match'' letters are sent out to employers by Social Security 
because they can't match the name, yet those funds are 
continuing to flow to our Social Security Trust Fund?
    Mr. Andrews. All I am able to speak to, Congressman, is the 
methodology of our study in Colorado, which accounting for the 
taxes estimated to be contributed by those illegally present in 
the United States, still leaves us with a net taxpayer burden 
in Colorado of $1 billion a year, sir.
    Mr. Gutierrez. I know that there are politicians, I am sure 
present company excluded, who wish to say our school system is 
failing, crime is on the increase, because I listened to your 
testimony and read it, and then simply attribute it to 
undocumented workers in this county when indeed they do pay 
taxes in abundance.
    Thank you very much, Madam Chairman, and thank you for 
letting me extend my time.
    Ms. Lofgren. Thank you.
    The gentleman's time has expired, and Mr. Zine has left us.
    The Ranking Member has asked unanimous consent that he be 
recognized for 2 minutes. And, without objection, he is 
recognized for 2 minutes.
    Mr. King. I thank the Chair, and she reads hand signals 
very well.
    I would like to give Senator Andrews an opportunity to 
explain that viewpoint that I think might have been somewhat 
frustrated, and I yield to you.
    Mr. Andrews. Thank you, Mr. King, but I think my response 
to Mr. Gutierrez, point well taken about the contributions in 
sales and other forms of taxation that are made by individuals 
present in Iowa or Illinois or Colorado, legally or illegally. 
The methodology of the study, to which I have referred the 
Committee in its full text, posted on the Web site of the 
Defend Colorado Now campaign, made allowances for the estimated 
tax contributions of this three-quarter million illegal 
population in Colorado and still concluded that legal residents 
were paying an extra $1 billion in public services to support 
them.
    Mr. King. Picking up on that, what I get in the middle of 
my packing plant area, where I grew up and where I live, are 
manilla envelopes full of check stubs from people that are 
working in the packing plant and there will be nothing deducted 
for State or Federal income taxes, because there are people 
that are claiming the maximum number of dependents, whether 
they actually have them or not, it is very unlikely.
    They do pay Social Security and they sacrifice their Social 
Security to the account that Mr. Gutierrez mentioned, but 
oftentimes, and we had testimony before this Committee just 
last year, that somewhere between 45 percent and 55 percent are 
being paid off the books. They don't pay income tax. They don't 
pay Social Security. But that Social Security that goes into 
that account is something that is unlawfully earned, every 
time. And so I don't think we have an obligation to hand 
somebody back some money that they unlawfully earned.
    I yield back to Mr. Andrews.
    Mr. Andrews. I do need to go. I appreciate the Chairman's 
courtesy in changing the schedule in order that I can make my 
plane.
    It was my honor to testify here in 2003 on the Matricula 
Consular card, restrictions passed with my legislative 
sponsorship in Colorado. I remember a spirited exchange between 
myself and Congressman Gutierrez at that time, and I welcome 
the opportunity to have a similar exchange with the Committee 
today.
    Thank you so much.
    Ms. Lofgren. Thank you very much, Senator.
    And as mentioned before, we may have written questions that 
we will ask you to respond to.
    We are now going to turn to our other patient witnesses.
    First, Councilwoman Santos, we are honored to hear from 
you.

  TESTIMONY OF THE HONORABLE SHARON TOMIKO SANTOS, WASHINGTON 
 STATE HOUSE OF REPRESENTATIVES, NATIONAL CONFERENCE OF STATE 
                          LEGISLATURES

    Ms. Santos. Madam Chairwoman, Ranking Member King and 
Members of the Subcommittee, I am Washington State 
Representative Sharon Tomiko Santos.
    I appear today on behalf of the National Conference of 
State Legislatures, a bi-partisan organization representing the 
50 State legislatures and the legislators. I co-chair NCSL's 
Executive Committee Task Force on Immigration and the States.
    Madame Chairwoman, thank you for your leadership in 
examining the impact of immigration on the States. My comments 
represent NCSL's policy on immigration reform, and I ask that 
our policy be placed in the record.
    With bipartisan consensus, we call on the Federal 
Government to act now to pass comprehensive immigration 
legislation to enhance our border security, address the 
inequities in our system and assist the States with the impact 
and integration of immigrants, especially in our health care, 
education and justice systems.
    States are often left to pay for programs required by 
Federal law as well as services mandated by the courts with 
limited Federal reimbursements. Our Nation's immigration laws 
must not contain unfunded mandates nor preempt areas of 
existing State authority.
    CBO estimates significant cost shifts to the States in 
education and health care systems. States are still the 
provider of last resort, especially in protecting public health 
and safety and providing emergency health care. Public hospital 
ERs are often the first point of entry for medical care. We 
also are expected to provide public health services and to help 
control potential bioterrorism threats, SARS, and avian flu.
    We struggle with the demands upon our pre-K to 12 education 
systems. In the Seattle public schools, students speak more 
than 100 languages and dialects. Statewide, the ESL population 
has doubled in the last 10 years. According to superintendents 
with high immigrant enrollment, at least 16,000 Washington 
students are in danger of not being graduating due to language 
requirements.
    We need additional resources to meet the No Child Left 
Behind requirement. We also believe that it is imperative to 
provide language and education to newcomers, including 
temporary and guest workers, to facilitate their successful 
integration into society as well as into the economy. 
Substantial Federal funding for English-language instruction 
and ESL can assist the States in these efforts.
    States must be able to count on a reliable guaranteed 
funding source to manage the fiscal impact of providing health 
and education to immigrant populations. Last year's Senate bill 
and the STRIVE bill included State impact grants to ameliorate 
these costs. NCSL will only support comprehensive immigration 
reform legislation if it includes these crucial grants to the 
States. These funds must be subject to State legislative 
appropriations, providing public accountability for these 
funds.
    The cost of incarcerating unauthorized immigrants that have 
committed crimes in State and local jails should be fully borne 
by the Federal Government through the State Criminal Alien 
Assistance Program. Currently, SCAAP only reimburses about 25 
percent of the cost incurred by States. The President's fiscal 
year 2008 budget eliminates these reimbursements. Shifting 
Federal costs to States weakens our intergovernmental 
partnership to combat crime and is an untenable, unfunded 
Federal mandate.
    I ask you to place correspondence between my governor and 
the U.S. attorney general in the record.
    Ms. Lofgren. Without objection.
    [The letter referred to is included in the attachments to 
Ms. Santos' prepared statement.]
    Ms. Santos. Thank you, Madam Chairwoman.
    This document invoices the Federal Government for non 
fairly reimbursing my State under SCAAP. In fiscal year 2005, 
Washington spent $27 million to temporarily hold Federal 
prisoners. We were reimbursed $1.72 million.
    Madam Chairwoman, we urge you to convey to the 
appropriators the vital need for Federal funding for SCAAP and 
to include full reimbursement in any comprehensive immigration 
reform law.
    In late 1999, a terrorist was apprehended crossing 
Washington's northern border. U.S. security needs must be met 
at all ports of entry and we support full Federal funding for 
technological and infrastructure improvement and renewed 
cooperation to counter human trafficking and drug smuggling. 
Security needs, however, must also recognize that border State 
economies are intertwined with our neighbors.
    NCSL supports comprehensive immigration reform that 
includes a temporary worker program and an earned legalization 
program for unauthorized immigrants that is not amnesty but a 
way for people who want to remain here in this country to 
accept a reasonable punishment and work toward legalizing their 
status.
    State legislators deeply care about immigration reform, 
Madam Chairwoman. I ask that the NCSL reports of State 
legislative action be placed in the record. This year, more 
than 1,000 legislative bills have been introduced. It is 
unprecedented.
    You truly are the only policymakers that can fix this 
problem.
    I thank you for this opportunity to testify, and I look 
forward to your questions.
    [The prepared statement of Ms. Santos follows:]
               Prepared Statement of Sharon Tomiko Santos
Good Afternoon.
    Madame Chairwoman, Ranking Member King and Members of the 
Subcommittee on Immigration, Citizenship, Refugees, Border Security, 
and International Law. I am State Representative Sharon Tomiko Santos. 
I serve as a member of the Washington State House of Representatives 
and as House Majority Whip. I appear today on behalf of the National 
Conference of State Legislatures (NCSL), a bi-partisan organization 
representing the 50 state legislatures and the legislatures of our 
nation's commonwealths, territories, possessions and the District of 
Columbia. I am also co-chair of NCSL's Executive Committee Task Force 
on Immigration and the States.
    Madame Chairwoman, I would like to take this opportunity to thank 
you for your leadership on this issue and your recognition of the 
importance of examining the impact of immigration on states and 
localities. State legislators deeply care about immigration reform and 
in a bipartisan fashion call on the federal government to pass 
legislation that will enhance our border security, while addressing the 
inequities in our current system. The federal government must also deal 
with the consequences of its immigration policy decision-making. 
Immigration reform must assist the states with the impact and 
integration of immigrants, especially on our health care, education and 
justice systems.
    I represent one of the most diverse communities in Seattle, 
Washington, the 37th District, home to a 25 percent foreign-born 
population. Overall, more than 12 percent of the state's population is 
foreign-born and only nine other states have a higher growth rate when 
it comes to their foreign-born population. Our state has been 
strengthened by the contributions of immigrants. Immigrants have been a 
source of economic development, especially in the agriculture and 
technological sectors. Over 60 percent of the state's agricultural 
industry is comprised of immigrant labor.
    Federal immigration policy will determine whether we have a stable 
and reliable workforce. The value of our hand-harvested fruit 
industries exceeds $1.6 billion an year. Particularly, our apple and 
cherry industries are heavily dependent on migrant and seasonal farm 
workers. Immigration policy will also have an impact on other 
Washington-based industries, such as the public utility industry and 
the impending retirement wave in this sector. Forty-two percent of 
Puget Sound Energy's work force is eligible to retire in the next five 
years.
    Madame Chairwoman, the United States security needs must be met on 
all ports of entry, the southern and also the northern border. As you 
know, Washington is a border state and in late 1999, a terrorist was 
apprehended crossing this very northern border. We must keep our 
citizens secure. Yet, without compromising this critical security need, 
we need to consider that the northern border region is becoming 
increasingly economically integrated. One example that comes to mind is 
the upcoming 2010 Olympic Winter Games in Vancouver, Canada. For my 
state it is critical to harness the beneficial effects connected to an 
event of this magnitude and to facilitate a visit to the United States 
for many guests from all over the world.
    Although immigration policy falls under the jurisdiction of the 
federal government, the impact of these policies are directly felt by 
the states. States are often left to pay for programs required by 
federal law as well as services mandated by the courts with limited 
federal reimbursements. The arrival of immigrants into an area requires 
programs and policies specifically directed towards the needs of 
immigrants while encouraging economic, social, and civic integration 
within the community.
    Last year, NCSL's leadership created an Executive Committee Task 
Force on Immigration and the States to examine both the state and 
federal roles in immigration reform, to consider NCSL policy and to 
examine the impact of immigrants on states. I speak today representing 
the bipartisan consensus that led to the adoption of our current NCSL 
policy on Immigration Reform. Immigration is now a 50-state issue--
concerning not only border states like my own but states in the South 
and Midwest, some of whom have seen a 400 percent increase in the 
number of foreign born residents over the last ten years. Madame 
Chairwoman, I ask that the NCSL policy be placed in the record.
    While immigration policy is a federal responsibility, there has 
been an unprecedented level of activity in state legislatures on this 
issue, especially in the absence of a federal solution.
    All 50 state legislatures have addressed immigration-related 
legislation in their 2007 legislative sessions and over 1150 bills have 
been introduced. This is already twice the number of bills compared to 
the full 2006 sessions (570). Up to this point, 18 states have enacted 
57 bills (as compared to 90 enactments during the entire 2006 
legislative sessions.)
    The main topics addressed by these bills are employment, law 
enforcement, benefits and education. Also, there is significant 
activity by the states in preventing human trafficking. Many state 
legislatures are still in session, meaning that it is quite likely that 
there will be even more activity as the year progresses. Madame 
Chairwoman, I ask that the full NCSL reports of state legislative 
activity from 2006 and 2007 be placed in the record.
    Madame Chairwoman, we urge you and the members of the Subcommittee 
to consider the impact of immigration policy changes on the states. 
Federal immigration policy must strike a balance among core principles 
of our democracy: preserving the safety and security of our nation, 
encouraging the economic strength of our states and communities, and 
recognizing our history as a nation of immigrants. Our nation's 
immigration laws must not contain unfunded mandates nor preempt areas 
of existing state authority. Federal immigration reform will not be 
comprehensive unless it addresses the impact of immigration on the 
states--border security and law enforcement, the costs of health and 
education and civic integration.
    border security and the role of state and local law enforcement
    Border enforcement is critical and we support full federal funding, 
especially for personnel and improvements in technology and 
infrastructure. State lawmakers have also called for renewed 
cooperation to counteract human trafficking and drug-smuggling.
    Madame Chairwoman, NCSL opposes proposals to shift the federal 
responsibility of enforcing civil immigration law to state and local 
law government, thus diverting critical resources from state and local 
law enforcement agencies and compromising public safety. Enforcement of 
federal immigration laws is a federal responsibility; state governments 
are already required to assist the federal government in criminal 
immigration violations. Civil immigration law enforcement, i.e. being 
in the country without permission, should remain the responsibility of 
the federal government, and only the federal government. State and 
local government law enforcement and public safety personnel are 
already asked, without the benefit of adequate federal assistance, to 
incarcerate, detain and transport unauthorized immigrants who have 
committed crimes. States do not have the funding and/or resources to 
train their employees in the matters of immigration law, unless the 
state has signed a Memorandum of Understanding (MOU), which will be 
specific to that state. The MOU, currently used by states such as 
Alabama and Florida and counties such as Los Angeles County and 
Mecklenburg County, gives states and localities the option to enter 
into a voluntary formal agreement with the U.S. Department of Homeland 
Security. When training under the MOU process is fully funded by the 
federal government, we view this as a viable way to give states and 
communities the choice of whether local enforcement of federal 
immigration laws is appropriate for them. As you know, training for 
state and local officers regarding the complexities of immigration law 
is crucial to avoid the risk of compromising successful community 
policing efforts and exposing governments to increased liability from 
the very communities that they serve as well as to avoid complaints of 
racial profiling.
    The burden of incarcerating unauthorized immigrants who have 
committed crimes, been convicted and are serving their time in state 
and local jails should be fully borne by the federal government. The 
State Criminal Alien Assistance Program (SCAAP) is a federal program 
through which states are reimbursed for the costs associated with 
incarcerating unauthorized aliens. SCAAP currently reimburses state and 
local governments for approximately 25 percent of the total costs 
incurred. There have been repeated efforts by the federal government to 
zero out this funding, including in the President's FY 2008 budget. 
Shifting these costs to cities and states weakens the intergovernmental 
partnership to combat crime. No immigration reform legislation will be 
complete without due attention to both the programmatic and fiscal 
aspects of SCAAP.
    Madame Chairwoman, Washington state taxpayers bear a significant 
amount of the costs incurred through the incarceration of criminal 
unauthorized immigrants. I ask that correspondence between my Governor 
Christine Gregoire and the U.S. Attorney General be included in the 
record. Governor Gregoire has invoiced the federal government for not 
fairly reimbursing Washington state through the SCAAP program. In FY 
2005, the Department of Corrections incarcerated almost a thousand 
criminal unauthorized immigrants at a cost of $74 a day. This amounts 
to a total of $27 million. Of this amount, the federal SCAAP program 
only reimbursed Washington $1.72 million. This represents approximately 
$4.75 per day. The total shortfall of federal reimbursements amounted 
to over $25 million in FY 2005. It is an untenable unfunded federal 
mandate. We urge you to ensure full reimbursement to the states for the 
cost of incarcerating undocumented immigrants both in any comprehensive 
immigration reform law and the FY 2008 appropriations. Madame 
Chairwoman, as the committee of jurisdiction we urge you to convey to 
the appropriators the vital need for full funding of this program.
              health care, education and civic integration
    CBO has estimated significant costs to the states in education and 
health care systems. The 1996 federal welfare law established a five 
year bar on SCHIP/Medicaid, food stamps, TANF and SSI for legal 
immigrants. Yet, state governments are still the providers of last 
resort, particularly in protecting public health and public safety and 
providing emergency health care. State governments also fund and 
provide critical English-language instruction and public education to 
newcomers that are essential for promoting public safety, reducing 
community tensions and integrating newcomers into our communities, 
including those who might be here on a temporary basis. Currently, 
public hospital emergency rooms are often the first point of entry when 
this population needs medical care. The costs are significant as 
medical conditions are often in an advanced stage. Because states and 
local governments enhance their partnership with the federal government 
in anti-terrorism activities, we are concerned about effectively 
providing public health services, which include encouraging residents 
to seek emergency health care and report disease to health officials in 
order to control potential bioterrorism threats, SARS, and avian flu. 
It is important that any immigration reform bill address health care 
planning and services that remove the burden from public hospitals and 
take into consideration the necessity of public health interventions.
    Madame Chairwoman, we also struggle with the needs of pre-K to 12 
education. I represent two school districts, Seattle and Renton. In the 
Seattle public schools district, students speak more than a hundred 
languages and dialects, including Vietnamese, Spanish, Chinese, 
Cambodian, Lao, Tagalog, Korean, Samoan, Amharic, Tigrigna, Russian, 
Ukrainian, and Somali. In the Renton school district, seventy-five home 
languages or dialects are represented among students and the English 
learner population (ELL) has increased more than 51 percent since 2000. 
Statewide, the ELL population has doubled in the last ten years. Most 
of these students are second and third generation, rather than 
immigrant students, and the majority of these students are Hispanic.
    Thirty-five superintendents from districts with high Hispanic 
student enrollment petitioned Governor Gregoire, the State 
Superintendent and Members of the Legislature regarding the delay of 
Washington State Assessment of Student Learning (WASL) requirements. In 
the petition, the superintendents identify improvements in the system 
but also make it very clear that 16,000 students in Washington are in 
danger of not being allowed to graduate from high-school due to 
language requirements. Let me quote the superintendents' petition: 
``The educational system (. . .) has failed to let us meet the needs of 
so many of our students because the system has not provided us with 
adequate time and resources to get the job done.'' We need additional 
resources to ensure that these children meet the No Child Left Behind 
(NCLB) standards.
    Additionally, we believe that it is imperative to provide language 
and education to newcomers to our country in order to accomplish 
successful integration into American society and culture. English-
language acquisition is essential for newcomers, including temporary 
workers. Substantial federal support for English-language instruction 
would enable states and towns to better educate children and adults and 
help to integrate these newcomers into our communities. As state and 
local government elected officials we find that the inability to 
communicate and understand each other serves as a flash point for 
aggravating tensions between newcomers and citizens. Assisting state 
and local government in English-language instruction for newcomers can 
help to alleviate these tensions and improve overall community 
relations.
                          state impact grants
    A critical component of last year's Senate bill and this year's 
STRIVE bill is state impact grants to ameliorate the costs states bear 
in health and education. NCSL will only support comprehensive 
immigration reform legislation if it includes these crucial grants.
    It is essential that state and local governments have a reliable, 
guaranteed funding source to manage the fiscal impacts of providing 
health, education (both pre-K-12 as well as ESL and civics for adults) 
to immigrant populations, including temporary and guest workers. These 
funds must be subject to state legislative appropriations, providing 
accountability for application of these funds to vital services. We 
urge inclusion of this or a similar provision in comprehensive 
immigration reform legislation this year.
         other key issues for comprehensive immigration reform
    There are a number of key features that NCSL deems necessary in 
order for any comprehensive immigration legislation to succeed. NCSL 
supports comprehensive immigration reform that includes a temporary 
worker program and an earned legalization program for unauthorized 
immigrants that is not amnesty but a way for people who want to remain 
in this country to accept a reasonable punishment and work towards 
legalizing their status.
    NCSL supports the creation of a temporary worker program, which 
will better ensure border security by providing a legal channel for 
people wanting to come into our country. This program will require 
state-federal cooperation.
    NCSL supports efforts prioritizing the promotion of citizenship and 
creating an earned legalization program for unauthorized immigrants 
currently in the country. This should not be a program providing for 
amnesty, but rather create a way for people who want to remain in this 
country to accept a reasonable punishment and work towards citizenship.
    NCSL supports full, appropriate and necessary federal funding for 
increases in Department of Homeland Security border enforcement 
personnel and for improvements in technology and infrastructure. 
Investments in technology and infrastructure can effectively leverage 
manpower and maximize the capacity of federal border enforcement agents 
in securing the borders. Related to efforts against human trafficking 
and drug smuggling, states have been leaders in addressing these 
concerns. We encourage the federal government to increase its 
enforcement of these crimes. The federal government should plan and 
fully fund the required services and facilities related to these 
crimes.
    Madame Chairwoman, Ranking Member King and Members of the 
Subcommittee, I thank you for this opportunity to testify and look 
forward to questions from members of the subcommittee.

                              Attachments:
    1. NCSL Immigration Reform Policy
    2. 2006 State Immigration Legislation
    3. 2007 State Immigration Legislation
    4. Letter From Washington Governor Gregoire to U.S. Attorney 
General Alberto Gonzales

                              ATTACHMENTS


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Ms. Lofgren. Thank you very, very much. And all of those 
documents will, as mentioned, be placed in the record.
    Dr. Appold, we would like to hear from you.

   TESTIMONY OF STEPHEN J. APPOLD, Ph.D., KENAN INSTITUTE OF 
PRIVATE ENTERPRISE, UNIVERSITY OF NORTH CAROLINA AT CHAPEL HILL

    Mr. Appold. Hi. I am Steve Appold from the Frank Hawkins 
Kenan Institute of Private Enterprise at the University of 
North Carolina at Chapel Hill.
    I was part of the team that put together the Institute's 
report on the economic impact of the Hispanic population on the 
state of North Carolina. North Carolina was a key expansion 
State for Hispanic immigrants during the 1990's and the first 
half of this decade. This is, other States have more and a 
higher proportion of Hispanics, but during the 1990's the 
Hispanic population rose faster in North Carolina than in any 
other State.
    A large proportion of North Carolina's Hispanic population 
consists of recent immigrants and their families, which is why 
we, for our purposes, can use those terms almost 
interchangeably. You could not do that in another State; in 10 
years you won't be able to do that in North Carolina either.
    But that influx of immigration brought about a large amount 
of interest and concern in the State about the impact on 
business, government and other aspects of social life.
    The Kenan Institute was commissioned by the North Carolina 
Bankers Association to lay out some basic facts about the 
demography and economic impact of Hispanic immigration. Copies 
of the report are available from the Institute's Web site, and 
I have brought several copies with me. I don't see them, but I 
left them down in 2138 earlier today.
    Our basic finding for North Carolina is that Hispanic 
immigrants are a fiscal drain on State and local governments, 
costing $61 million more or less in 2004 for an average of $102 
per Hispanic resident, but create an overall economic advantage 
through their consumer spending and cost-effective labor that 
supports key industries, including construction and 
agricultural processing. I had better be careful saying that 
since I did walk through the rally earlier today.
    But that is, much like localities offering relocation 
inducements to firms in order to capture the benefits of 
employment growth, the immigration business model, if I can 
call it that, that seems to be working in North Carolina is one 
of providing a focused subsidy in order to increase overall 
gain. The balance differs from State to State and will most 
likely vary over time.
    Right now I want to concentrate on our methodology rather 
than discuss our results. Our analysis consisted of five key 
steps, each relying on and extending federally-funded data 
collection. We needed to estimate the total Hispanic 
population, Hispanic consumer spending power and economic 
impact of that spending, the taxes paid, critical public costs, 
and we limited our attention to three areas: education, health 
care delivery and criminal justice and productivity effects.
    What we did was attempt a broad, overall synthesis so that 
many different data sources, including federally-funded data 
collection, extensive interviews with public official service 
providers and business people and public administrative records 
were used.
    We wanted an accounting of costs and benefits that was as 
close to the ground as possible. Studies of immigrant impacts 
are often driven as much by their modeling assumptions as by 
the data, and we wanted to get as close to the data as 
possible. Unfortunately, we needed to estimate our information 
much more than we would have liked. The data for accurate, 
timely measurements often do not exist. Moreover, we found that 
we were sometimes forced to explore new ground in making those 
estimates.
    Before I became involved with this project, I had assumed 
that everything that could be said already had been said since 
Hispanic migration has been occuring for several decades. I was 
wrong. Key areas of analysis that might support informed public 
policy were simply missing.
    Since completing this study, we have refined our estimation 
methods and are continuing to do so. We have also performed 
similar analysis for another State and we are beginning to 
investigate the factors that determine the level of costs and 
benefits across States.
    Thank you for your attention.
    [The prepared statement of Mr. Appold follows:]
                Prepared Statement of Stephen J. Appold

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Ms. Lofgren. Thank you, Doctor.
    And we will now begin our questions. I am going to defer to 
the Chairman of the full Committee, Mr. Conyers, who has 
another obligation pretty soon, to ask him to go first.
    Mr. Conyers. Thank you.
    I waive my questions, but I have the impression that we are 
here weighing the obligations and costs and expenses of having 
immigrants of different categories in a State versus the 
benefits or economic advantages that occur by their presence. 
And it seems to be that almost every witness has talked about 
that this afternoon.
    And we come up with an uneven response about it. And I 
would like to assure the two remaining witnesses that this is 
an important part of these hearings, and the documentation on 
this subject is going to be part of an incredibly important way 
that we work our way toward a full and comprehensive bill, 
because there is a law enforcement magnet somewhere here, that 
people want to punish and get rid of and build fences, and 
there is another point of view that there may be benefits not 
yet fully recognized by many of the legislators. And it seems 
to me that the accuracy of our economic picture that we paint 
in the Congress will be very important in determining how we 
put together a final reform package, and that makes this 
hearing very important.
    So the continued cooperation with our Subcommittee Chair 
would be very important.
    Ms. Lofgren. Thank you. Thank you, Mr. Conyers.
    The Ranking Member is recognized.
    Mr. King. Thank you, Madam Chair.
    I turn first to Representative Santos. I know as I stepped 
forward and took the oath of office, I reflect back on that 
time, and I know you must have done the same. Do you take an 
oath to uphold the rule of law as a Representative for the 
State of Washington?
    Ms. Santos. I take an oath to uphold the Constitution of 
the United States and the Constitution of the State of 
Washington.
    Mr. King. Does that imply the laws underneath the 
constitutions as well? Is that answer yes?
    Ms. Santos. Yes.
    Mr. King. Thank you. I just wanted that clarification, and 
then I will move on from that. I don't want to make a point off 
that necessarily.
    In your testimony, you addressed the SCAAP funding and that 
it is under-funded and you are only receiving 25 percent of the 
costs incurred by incarcerating criminal aliens in the State of 
Washington to a shortfall of I think $172 million, you 
testified. But all the way across the country we have that same 
kind of deficiency, if I read the reports correctly.
    And so are you aware that when you--and I think you are 
because I identify significant intellect there. But when you 
ask for, then, a comprehensive immigration reform plan, rolled 
out in the Senate today, that legalizes 12 or 20 or more 
million people, that really means the end of SCAAP funding for 
that massive number of people, and maybe it would qualify for 
those newly arriving illegals that would start this process all 
over again. Are you willing to make that kind of sacrifice?
    Ms. Santos. Well, I am certainly not familiar with the 
details of the breaking news that we heard right before we came 
in, but what I do know, Congressman, is that right now we are 
absorbing, our taxpayers are absorbing, the costs of enforcing 
and implementing Federal laws.
    Mr. King. You would lose SCAAP funding under--I mean, let's 
just presume that what I said is right and no further than 
that. But you would lose the SCAAP funding under that. You 
wouldn't have a claim to funding for criminal aliens any 
longer, because they would no longer be criminal aliens.
    Ms. Santos. Well, I think that, again, the devil is in the 
details, and I would hope that in other areas of the 
legislation that you would, collectively, that Congress would 
recognize that we all, the Federal Government and the State 
government and the local government, down to our little school 
boards, all share in a common objective of integrating 
newcomers and ensuring----
    Mr. King. You make your point that we should pay attention 
to that deficiency should there be some legislation passed. 
That goes into this record, and I think it is an important one 
that we should all consider as we decide this argument.
    But have you seen any statistics, the Federal Government is 
housing 27 percent of the inmates are criminal aliens. If you 
extrapolate those 25 percent numbers across the States and put 
that altogether, you would come up with about 28 percent of our 
State inmates and our Federal inmates are criminal aliens. They 
aren't all illegal. Some of them, about 40 percent, came here 
and overstayed their visas. But between them, if they are 
committing that percentage of the crime, have you considered 
how many murders that is, how many victims of negligent 
homicide that is, and that those casualties are far greater 
than the cumulative total in Iraq and September 11 together on 
an annual basis?
    Ms. Santos. And, Congressman, I do know that some of the 
individuals who are being held, at least in my State's state 
and local jails, are only being held on the basis of a traffic 
violation.
    Mr. King. But still, somebody is committing the murders, 
the rapes, the negligent homicides, and we don't have any 
evidence that the criminal aliens are committing those acts in 
a lesser number as a proportion of their overall population or 
their inmate base.
    And so would you put this into your equation, I would ask 
you to do this as a policy leader in your part of the world, 
that if we enforce our immigration laws, those who are illegal 
aliens would not be here. Therefore, the victims of those 
crimes would still be alive. And those who are unlawfully 
present here in the United States then, add that total up, and 
weight that as part of your oath too. I mean, I weigh it 
heavily with mine, to protect the American people as the first 
priority. And I give you an opportunity to respond to that.
    Ms. Santos. I think it is very important to recognize first 
and foremost that those who are in prison wouldn't have the 
opportunity to legalize, and I think that in terms of the 
question of State legislators upholding their oath to uphold 
not only the Constitution of the United States but their State 
constitutions and the laws underneath, I think that you would 
find that according to our NCSL policy, we are asking for the 
opportunity to continue to partner with the Federal Government 
to come forward with something that is comprehensive, a 
framework that we could all buy into on a bipartisan basis, 
because right now, as it is, we have got every State in the 
union trying to step in and fill a void that currently exists.
    Mr. King. Thank you.
    I thank you both for your testimony, and I yield back the 
balance of my time.
    Ms. Lofgren. Thank you.
    I will now take my opportunity to ask questions and then we 
will go to our second panel.
    Dr. Appold, I thought your testimony was very interesting 
and I had a chance to read through it. I want to ask just a 
couple of questions.
    On Page 7 of your testimony, you basically come to the 
conclusion, using the analysis that you have done, that there 
is a cost of between the tax contributions and major public 
costs, of $102 per Hispanic resident. But then you go on to 
talk about the labor power and the other benefits.
    Have you calculated or is it possible to calculate the 
labor benefits that you then discuss and the economic activity? 
I mean, what is the bottom line? Is there a way to get there?
    Mr. Appold. We are not 100 percent satisfied with our way 
of merging the three different areas of the analysis. There is 
a way to do that, but we have not completed it yet.
    So what we did is we identified the impacts of consumer 
spending, the fiscal balance and the productivity impacts 
separately.
    Ms. Lofgren. Okay. So are you still working on that?
    Mr. Appold. Yes.
    Ms. Lofgren. So we might get a later report?
    Mr. Appold. Not this afternoon. [Laughter.]
    Ms. Lofgren. Not this afternoon. That is fair enough.
    Let me just----
    Mr. Appold. But if you say you want it, that will encourage 
us to work harder.
    Ms. Lofgren. It is very interesting. He and Councilman Zine 
had to get to their planes, but State Senator Andrews 
referenced a study that they did. I don't have the methodology, 
and they came up with, you know, a huge cost that they are 
suspecting in his State. I don't know if you have had a chance 
to review the Rector Study from the Heritage Foundation, but 
they come up with a cost. I mean, the reports really are all 
over the board, and I am sort of wondering what methodology 
should be relied upon.
    Mr. Appold. Well, what we reacted to, there is some very 
good work that was done in the late 1990's, the New Americans, 
and I believe The Heritage Foundation builds off that 
methodology.
    And that is a very nice methodology, but it relies a lot on 
certain assumptions. And if I go look at the National Bureau of 
Economic Research's Web site, I can download papers that come 
to very different kinds of conclusions, and it is all based on 
what assumptions they start with.
    And so what we did is we figured we could not contribute 
something to that debate. These are smart people. They have 
been going back and forth for at least a decade. We would stay 
close to the ground and come as close to measuring as we could.
    Ms. Lofgren. Very interesting.
    Councilwoman Santos, I was in local government for longer 
than I have been in Congress, and I really know what it is like 
to be in local government, where the rubber meets the road. And 
your testimony is important to us.
    In addition to your official duties on the City Council, I 
know that you have an interest in the overall economy of your 
region, and I note that 42 percent of the Puget Sound Energy's 
workforce is eligible to retire in the next 5 years. How are 
you going to meet the job needs? Are you looking to immigration 
to meet that economic fall from retirement?
    Ms. Santos. Thank you, Madam Chairwoman. And, of course, I 
serve in the State legislature, so I have, from the standpoint 
of----
    Ms. Lofgren. I really messed that up, haven't I. I am so 
sorry.
    Ms. Santos. They get paid better than we do at the State, 
so----
    Ms. Lofgren. That is true.
    Ms. Santos. Yes, that is true, and I would direct your 
attention to actually an article a business columnist for one 
of our Seattle dailies, who made the point that not only is 42 
percent of Puget Sound Energy's workforce scheduled to retire 
in the next 5 years, but there is also about 25 percent of the 
Boeing machinists who will be scheduling to retire within the 
next 5 years. I think they said that 5,000 out of 21,000 
machinists in the Puget Sound region are over the age of 50 and 
something like 8 percent are over the age of 60.
    I think about our $1.6 billion apple industry, which is 
handpicked fruit. Cherries are the same way, largely dependent 
on the migrant seasonal labor force that comes through 
California, Oregon, and Washington. It is important for us to 
ensure that the temporary and the seasonal workforce needs of 
the States are addressed. I might also add in the high tech 
arena as well.
    Ms. Lofgren. Representative, my apologies for calling you 
councilwoman.
    And I will just note that in a different role, as Chair of 
the California Democratic Delegation, we have worked very hard 
on SCAAP funding and agree.
    Ms. Santos. Thank you.
    Ms. Lofgren. I would like to thank the two witnesses for 
their patience and sticking with us to give your testimony, for 
your answers to our questions, and note that we have 5 
legislative days to submit questions in writing. If we have 
further questions, we will forward them to you and ask that if 
you are able to respond as promptly as possible, that would be 
very much appreciated.
    We are aware that witnesses testify really as a 
contribution to our country, and we appreciate your 
contribution today very much indeed.
    Ms. Santos. Thank you for inviting us.
    Mr. Appold. Thank you.
    Ms. Lofgren. I would like to call the second panel.
    I would like to introduce our second panel.
    First, we are pleased to have Dr. Audrey Singer with us 
today, the immigration fellow at the Brookings Institution 
Metropolitan Policy Program. An accomplished scholar, Dr. 
Singer joined Brookings after having served as an associate at 
the International Migration Policy Program at the Carnegie 
Endowment for International Peace. She held a faculty position 
in the Department of Democraphy at Georgetown University and 
has worked as a demographic analyst at the U.S. Department of 
Labor. She holds her bachelor's degree from Temple University 
and both her master's and doctoral degrees from the University 
of Texas at Austin.
    I would like next to welcome Dr. Anne Morrison Piehl, an 
associate professor in the Economics Department and a member of 
the program in criminal justice at Rutgers, the State 
University of New Jersey. In addition to her responsibilities 
at Rutgers, Dr. Piehl serves as a research associate at the 
National Bureau of Economic Research. She also held a teaching 
post at the John F. Kennedy School of Government at Harvard 
University for 12 years. She earned her bachelor's degree from 
Harvard and her Ph.D. from Princeton University.
    Next we are pleased to have Dr. Deborah Santiago with us, 
the Vice President for policy and research at Excelencia in 
Education. Prior to her work at Excelencia, Dr. Santiago served 
as an analyst at the U.S. Department of Education, as deputy 
director of the White House Initiative on Educational 
Excellence for Hispanic Americans, as Vice President for Data 
and Policy Analysis at the Los Angeles County Alliance for 
Student Achievement, and as an Irvine fellow at the Rossier 
School of Education at the University of Southern California. 
She holds her bachelor's degree from the University of Mary 
Washington, a master's degree from Virginia Polytechnic 
Institute and State University, and a doctorate in education 
policy from the University of Southern California.
    Finally, we would like to welcome back the minority's 
witness, Mr. Robert Rector, a senior research fellow at The 
Heritage Foundation here in Washington. Mr. Rector's research 
has focused on the U.S. welfare system and he has authored a 
number of works on the subject, including America's Failed $5.4 
Trillion War on Poverty. Mr. Rector graduated with a bachelor's 
degree from the College of William and Mary and a master's 
degree from Johns Hopkins University. This is Mr. Rector's 
second appearance before this Subcommittee on the matter of 
comprehensive immigration reform.
    And we do welcome all of you.
    As you heard with our first panel, we do ask that you 
summarize your testimony in about 5 minutes. Your entire 
written statement will be made part of the record of this 
hearing.
    When you have consumed 4 minutes, the yellow light will go 
on and when the light turns red, it means that 5 minutes is up. 
And the time flies, really, it is often a surprise. We ask that 
you wrap up at that point so that we will have an opportunity 
to ask questions.
    And again, thank you so much for being here.
    We will begin with you, Dr. Singer.

    TESTIMONY OF AUDREY SINGER, Ph.D., IMMIGRATION FELLOW, 
     METROPOLITAN POLICY PROGRAM, THE BROOKINGS INSTITUTION

    Ms. Singer. Thank you. Madam Chairwoman and Members of the 
Subcommittee, thank you for the opportunity to speak to you 
today about the effects of immigration on States and 
localities.
    My comments today will focus on three interrelated areas: 
how settlement patterns of immigrants have shifted during the 
past 15 years, and how many areas with no history of 
immigration are experiencing recent and rapid influxes; how 
although States and local areas have no control over who enters 
the country, local institutions and leadership shape the 
prospects for immigrant integration; finally, drawing on 
existing models, I will suggest a role for the Federal 
Government in helping States and localities with immigrant 
integration through funding to coordinate public policy 
explicitly and strategically aimed at immigrants.
    As Congress continues to debate Federal immigration reform, 
States and localities will deal on their own with many issues 
that they view as the responsibility of the Federal Government. 
I will make the case that there should be a Federal program 
that helps States and localities with immigrant integration so 
it is not left entirely in their hands.
    As of March, 2005 an estimated 36 million immigrants were 
living in the United States. Due to changes in labor markets, 
today's immigrants, both legal and illegal, are increasingly 
settling outside well established immigrant gateways in a new 
group of cities, suburbs, small towns and rural areas. Prior to 
the 1990's, immigrant settlement had a predictable pattern and 
was limited to mostly cities in the southwest and coastal 
States. By century's end, many places with virtually no history 
of immigration were attracting immigrants.
    The swiftness of the influx in areas that historically have 
not accommodated large numbers of immigrants has caused social 
and economic stress where institutional structures that could 
assist in the integration of immigrants are insufficient or 
nonexistent. Local leaders are grappling with the costs to 
institutions where immigrant newcomers have the greatest 
impact, such as schools, hospitals, and public safety 
departments.
    There has been a proliferation of State and local laws, 
ordinances, proposals and practices around immigration in very 
recent years. The National Conference of State Legislatures 
reports that as of April 2007, all 50 States are considering 
immigration-related bills, twice the number they considered in 
all of last year. More than half of the bills relate to 
employment, State benefits, services, law enforcement and 
education issues.
    In addition to State bills, countless local jurisdictions 
have introduced laws related to immigrants, focusing on issues 
such as day labor sites, language, employment, rental housing, 
and local law enforcement.
    Not all of the policy changes are restrictive or punitive. 
However, it is worth noting that many of the most restrictive 
measures have been developed in areas with little or no prior 
experience of immigration.
    Federal immigration policy all but ignores the fact that 
immigrants settle into local areas. Big picture policy issues 
like border enforcement and the visa allocation system are 
national-level concerns. But immigrants are not evenly 
distributed across the Nation. They live in cities, counties, 
towns, and neighborhoods. They work in local firms, join local 
religious congregations, they access State and local services. 
Their children attend local schools.
    Localities have no control over who enters the country, or 
who lives in their communities, but they have considerable 
influence over how immigrants are incorporated, socially, 
economically, and civically.
    Immigrant integration is an overlooked aspect of the 
immigration policy arena. Integration is the long-term process 
where immigrants become incorporated into U.S. life and it 
involves both established residents and immigrant newcomers. It 
refers to changes immigrants undergo as they adapt but it also 
refers to the effect immigrants have on local institutions and 
communities as well as the Nation.
    In order for the U.S. immigration system to work well, it 
must address the integration of immigrants who arrive with a 
multitude of background characteristics. Alongside State and 
local governments are schools, faith-based institutions and a 
host of nonprofits, that develop programs and practices that 
aid in the integration of immigrants. The quality of these 
systems and institutions makes a difference in how people adapt 
to life in the United States. The best thing that we can do for 
communities, especially those that are newly affected by 
immigration trends, is to provide guidance on policies to 
facilitate integration and funding to carry them out.
    There currently is no national office that works to 
coordinate, measure and advance immigrant integration. What 
would such a national program look like?
    Seed funding for the proposed New Americans Initiative 
would be provided by the Federal Government but would comprise 
State initiatives built around public-private partnerships. 
Several leading models exist, one in Illinois and one in 
Colorado, that prioritize programs that help immigrants learn 
English, gain citizenship, involve immigrant parents in schools 
and provide better access to services at State agencies.
    Under a national New Americans Initiative, States would be 
encouraged to design their own strategic recommendations and 
advisory structures, pursue funding from foundations and 
businesses and work with local organizations.
    The Federal Government would monitor and coordinate 
processes to glean policy guidance and promising practices to 
be shared across States. It would also work to first develop 
and then achieve certain measurable benchmarks related to 
immigrant integration.
    Regardless of when immigration reform happens, States and 
localities face on-the-ground realities regarding new flows of 
immigration. It is time for the Federal Government to take a 
leadership role in making the integration process smoother for 
immigrants, State and local governments, and communities to 
yield long-term benefits for the Nation.
    Thank you.
    [The prepared statement of Ms. Singer follows:]
                  Prepared Statement of Audrey Singer
    Madam Chairwoman and Members of the Subcommittee, thank you for the 
opportunity to speak to you today about the effects of immigration on 
states and localities. My research focuses on comparative metropolitan 
settlement patterns and the responses of local communities to 
immigration.
    My comments today will focus on three interrelated areas.

        <bullet>  How settlement patterns of immigrants have shifted 
        during the past 15 years, and how many areas with no history of 
        immigration are experiencing recent and rapid influxes.

        <bullet>  How although states and local areas have no control 
        over who enters the country, local institutions and leadership 
        shape the prospects for immigrant integration.

        <bullet>  Finally, drawing on existing models, I will suggest a 
        role for the federal government in helping states and 
        localities with immigrant integration through funding to 
        coordinate public policy explicitly and strategically aimed at 
        immigrants.

    As Congress continues to debate federal immigration reform, state 
and localities will deal on their own with many issues that they view 
as the responsibility of the federal government. The elements of 
immigration reform must include border and interior enforcement, an 
employment verification system, new worker program, visa reforms, and 
an earned legalization program. I will make the case that there should 
be a federal program that helps states and localities with immigrant 
integration so it is not left entirely in their hands.
                    the new geography of immigration
    As of March, 2005 an estimated 35.7 million immigrants (of all 
legal statuses) were living in the United States. Due to changes in 
labor markets, today's immigrants, both legal and illegal, are 
increasingly settling outside well established immigrant gateways in a 
new group of cities and suburbs. Prior to the 1990s, immigrant 
settlement had a predictable pattern and was limited to mostly 
Southwestern and coastal states and metropolitan New York, Los Angeles, 
Miami and Chicago. By century's end, many places with virtually no 
history of immigration were attracting immigrants.
    The swiftness of the influx in areas that historically have not 
accommodated large numbers of immigrants has caused social and economic 
stress. Especially in rural areas, small towns, and suburban areas, the 
institutional structures that could assist in the integration of 
immigrants--both community and governmental--are insufficient or 
nonexistent. Local leaders are grappling with the costs to institutions 
where immigrant newcomers have the greatest impact, such as schools, 
hospitals, and public safety departments.
    Many large metropolitan areas as well as small towns and rural 
areas saw a doubling or more of their foreign born in the 1990s alone. 
The root causes of new trends in settlement are mixed. In the latter 
half of the 1990s, some metropolitan areas experienced robust economic 
growth, thus creating new job opportunities for immigrant (and US-born) 
newcomers. In other places, refugee resettlement appears to have 
increased foreign-born residents and also spurred on subsequent 
migration. A third factor is the internal movement of foreign-born U.S. 
residents, for instance the outflow of immigrants from Los Angeles to 
other metropolitan areas in the region in search of a lower cost of 
living. Underlying all of these trends are social networks of 
information about jobs and housing that inform the decisions immigrants 
and refugees make on where to reside.
    Newly emerging immigrant gateways are drawing immigrants in record 
rates. Some of the fastest growing places are in the southeast such as 
Atlanta, Raleigh-Durham, and Charlotte, and other new metropolitan 
destinations are in the southwest, for example, Dallas-Fort Worth, 
Phoenix, and Las Vegas. Several northwest metro areas like Seattle, 
Portland, and Sacramento have re-emerged as immigrant gateways after 
having waned as immigrant destinations during the second half of the 
20th century. Most of these areas have seen their immigrant population 
grow three or four fold as a result of new immigration in the past 20-
25 years (see Singer 2004).
    This period marked another new immigrant settlement trend--one 
taking place wholly within metropolitan areas--the suburbanization of 
immigration. As the urban economy has shifted from manufacturing to new 
economy services, the suburbs have become the preferred location for 
dispersed commercial and office space. As immigrants have followed the 
opportunities, including jobs and housing, they are now breaking with 
historical patterns and moving directly from abroad to areas outside of 
central cities in great numbers. This represents a departure from the 
past, when the pattern was more likely to be that immigrants moved to 
cities where housing and jobs were plentiful, and where they found 
others from their own background. The end of the 1990s marked the first 
time that the suburbs surpassed cities as the primary place of 
residence among the foreign born.
    While immigration is largely an urban experience in the 
contemporary United States, a growing number of immigrants are also 
choosing small towns and rural areas. A recent study by Penn State 
sociologist Leif Jensen noted that immigrants are finding opportunities 
in agriculture, food processing, and other manufacturing in rural 
counties particularly in southeastern states. They are also settling in 
western areas with tourism-based economies and rural areas on the 
outskirts of larger, more immigrant-heavy areas. Immigrants in rural 
areas are often more noticeable and can elicit strong reactions, and 
the infrastructure to receive them is often nonexistent (Jensen 2006).
                state and local reception of immigrants
    This week, Farmers Branch, a suburb of Dallas, voted into law an 
ordinance that makes it against the law for landlords to rent to 
illegal immigrants. This is not the first municipality to introduce 
such a measure--several localities around the country have patterned 
new laws like this one after similar measures in Hazleton, 
Pennsylvania. The Farmer's Branch law is emblematic of the frustration 
that many local public officials feel about the lack of federal reform 
and represents just one way they are choosing to take action.
    There has been a proliferation of state and local laws, ordinances, 
proposals, and practices around immigration in very recent years. The 
National Conference of State Legislatures reports that as of April 
2007, all 50 states are considering immigration-related bills--nearly 
three times the number they considered last year. That amounts to over 
1,100 pieces of state legislation designed to address immigration or 
immigrant-related issues in the first quarter of 2007, more than twice 
as many introduced in all of 2006 including:

        <bullet>  41 states have 199 bills related to employment, most 
        of them restricting the employment of unauthorized workers or 
        addressing eligibility for workers' benefits.

        <bullet>  39 states have 149 bills addressing state benefits 
        and services to immigrants. Many of these bills would restrict 
        services, but some broaden benefits to specific immigrant 
        groups.

        <bullet>  30 states have 129 bills around law enforcement 
        issues, either those that would authorize local law enforcement 
        to work with federal immigration authorities or the opposite: 
        those that prohibit local law enforcement from doing so.

        <bullet>  30 states have 105 bills dealing with education 
        issues related to participation in educational programs, some 
        restrictive, some inclusive, including bills around eligibility 
        for in-state reduced tuition costs.

    In addition to state level reforms, countless local jurisdictions 
have introduced laws related to immigrants, focusing on issues such as 
day labor sites, language, employment, rental housing, and local law 
enforcement. Other communities are using laws already on the books--
like residential zoning and housing ordinances--to attempt to curb the 
increase of immigrants or force them out. Growing intolerance towards 
illegal immigration--and growing frustration with the lack of federal 
movement on immigration reform--often drives local officials towards 
greater enforcement of ordinances that may deflect immigrants elsewhere 
and show that they are responding to public pressure.
    These new policies are in part a result of the new geography of 
immigration, and the rapidity with which immigrants are appearing in 
new communities. City, county and municipal officials are feeling 
pressure to ``do something'' about immigration. The result is that 
local governments are creating their own de facto immigration policy.
    Not all of the local policy changes are restrictive or punitive; 
some places have developed new policies and passed ordinances that 
accommodate immigrants, such as publishing material in languages other 
than English or maintaining local services for all immigrants 
regardless of legal status. However, it is worth noting that many of 
the most restrictive measures have been developed in areas with little 
or no prior experience of immigration.
    Although many of these new laws may be legally challenged and 
eventually struck down, they stir up local debate and create an 
uncomfortable environment for immigrants, even those who are here 
legally.
    Thus in the absence of federal policy, we can expect that state and 
local officials who are feeling the pressure to take action will 
continue to develop their own strategies for dealing with immigrants. 
Regardless of how the current immigration reform debate is resolved, 
they still have the day-to-day responsibility of integrating immigrants 
in neighborhoods, local labor markets, and schools.
                     a ``new americans initiative''
    Federal immigration policy all but ignores the fact that immigrants 
settle into local areas. Big picture policy issues like border 
enforcement and the visa allocation system are national level concerns. 
But immigrants are not evenly distributed across the nation; they live 
in cities, counties, towns, and neighborhoods. They attend local 
schools, work in local firms, shops, and factories, join local 
religious congregations, and they access state and local services. 
Localities have no control over who enters the country, or who lives in 
their communities, but they assert significant influence over how 
immigrants are incorporated, socially, economically, and civically.
    Immigrant integration is an overlooked aspect of the immigration 
policy landscape. Immigrant integration is the long term process where 
immigrants become incorporated into US life, and it involves both 
established residents and immigrant newcomers. It means immigrants 
learning English and American ways of life. It also means that American 
institutions are adapting to newcomers over the long run and combining 
diverse origins and perspectives into one people, the American people, 
as it has done for over 200 years. Ultimately, immigrant integration 
fosters social inclusiveness and economic mobility as immigrants and 
their offspring become full members of US communities. It refers to 
changes immigrants undergo as they adapt, but it also refers to the 
effect immigrants have on local institutions and communities as well as 
the nation.
    In order for the U.S. immigration system to work well, it must 
address the social, political, and economic integration of immigrants 
who arrive with a multitude of national origins, languages, religions, 
customs, and skills. The current ``system'' of integration involves 
little formal aid or guidance from the federal government. 
Historically, immigrants turned to mutual aid societies, settlement 
houses, churches, and synagogues. Today, alongside state and local 
governments are schools, churches and a host of nonprofits, that 
develop programs and practices that aid in the integration of 
immigrants. The quality of these systems and institutions makes a 
difference in how people adapt to life in the United States; therefore 
it is imperative that local areas, especially ones newly affected by 
immigration trends, have guidance on policies to facilitate 
integration, and, as important, funding to carry them out.
    There currently is no national office that works to coordinate, 
measure, and advance immigrant integration. Other countries such as 
Canada, Sweden, and the Netherlands include integration in their 
national offices.
    States and localities--particularly in new immigrant destination 
areas--would benefit from intentional, strategic and coordinated public 
policy directed explicitly at immigrant integration. Localities across 
the country, both established areas and new destinations, will benefit 
from an infusion of resources to address the short- and long-term 
process of immigrant integration.
    Many of the state and local policy points that I have already 
mentioned are the very issues that constitute a framework for immigrant 
integration. Can we build a national, harmonized system of providing 
English language classes to immigrant newcomers? Can we ensure that 
newcomers, while on their way to learning English, have access to vital 
information about services, safety, and civic responsibilities? Can we 
develop programs to assist new destination areas with resources to help 
public schools, law enforcement agencies, and healthcare providers as 
they encounter immigrants and refugees for the first time?
    What would such a program look like? Seed funding for the proposed 
New Americans Initiative would be provided by the federal government, 
but would comprise state initiatives built around public-private 
partnerships. A good model is a 2005 Illinois initiative designed to 
provide a ``coherent, strategic, and proactive state government 
approach to immigrant integration.'' In Illinois, a State Taskforce, 
which includes high-level state agency and department officials, is 
charged with examining how the state government can systematically 
address its changing population, augmented by a Policy Council, which 
includes Illinois leaders with experience managing immigration in the 
business, community, philanthropic, faith, labor, and government 
fields. The two groups' recommendations prioritized programs that would 
help immigrants learn English, put legal immigrants on a path towards 
citizenship, establish state Welcoming Centers as a first point of 
contact for immigrants arriving into Illinois, and provide better 
access to services that state agencies provide.
    Another model comes from the Colorado Community Trust's 
``Supporting Immigrant and Refugee Families Initiative'' which supports 
19 Colorado communities in their efforts to support immigrants and 
established residents in working together for healthy communities. 
Specific needs and strategies are identified through a planning process 
that involves members from a wide range of perspectives: health care, 
education, business, banking, law enforcement, local government, and 
various nonprofit and faith-based organizations. Current projects 
include strengthening local health care providers' ability to offer 
competent care to people from different cultures, helping immigrant 
parents to become more involved in their children's schools, improving 
access to English classes for immigrants, and developing mentoring 
opportunities among foreign and native-born families.
    Under a national New Americans Initiative, states would similarly 
be encouraged to design plans specific to their needs. Recommendations 
from the Illinois experience that are universally applicable include:

        <bullet>  Implementing an English learning campaign. Gaining 
        English proficiency is fundamentally important for immigrants 
        to participate fully in American society. This recommendation 
        calls for a coordinated effort among the state community 
        college board, businesses, educators, and immigrant advocates 
        to create, fund, and implement a campaign to offer English 
        instruction where immigrants live and work.

        <bullet>  Helping eligible legal permanent residents attain 
        U.S. citizenship. When immigrants naturalize, they take on the 
        rights and responsibilities of being a full member of U.S. 
        society; they can vote, hold public office, serve on juries, 
        and participate in other civic activities. The program should 
        support community-based organizations that help immigrants 
        prepare for the naturalization exam and guide them through the 
        formal process.

        <bullet>  Ensuring that immigrants and refugees can access 
        state services. While immigrants are building their English 
        skills, they should have good access to services and 
        information about state offerings, even if it must be provided 
        in their own languages. Many local governments across the 
        country already offer services and material in languages of 
        local immigrant groups, provide translation services, and hire 
        multi-lingual staff. Implementing this recommendation will make 
        language access a foundational method of doing business with 
        local governments.

    For states to adopt a model such as the Illinois or Colorado 
examples would require federal start-up funds. Each state would design 
its own strategic recommendations and advisory structure, pursue 
funding from foundations and businesses to create public-private 
partnerships, and work with local organizations in affected areas. The 
federal government would monitor the New Americans Initiative to glean 
policy guidance and promising practices that can be shared across 
states, where immigration patterns are new, changing, or well 
established. It should also work to first develop and then achieve 
certain measurable benchmarks related to immigrant integration.
                          concluding thoughts
    Current legislative proposals point to the possibility of an earned 
legalization program. Such a program would enable localities to 
demonstrate the presence and size of their undocumented population. New 
destination states and localities, especially, have short-term fiscal 
burdens related to providing schooling, emergency health care, and 
other social services that they cannot meet through existing revenue 
sources. An earned legalization program must include funding for an 
impact aid program to offset state and local expenditures.
    A precedent for this proposed program is the $4 billion State 
Legalization Impact Aid Grant program, a provision of the 1986 
Immigration Reform and Control Act (IRCA) that helped states offset the 
costs associated with legalized immigrants. The plan was to compensate 
states for providing public benefits, public health services, and adult 
education to help immigrants meet IRCA's requirements for basic 
knowledge of the English language, U.S. history, and government. 
Unfortunately, the program, which ended in 1995, was unevenly 
implemented. States and localities complained that reimbursements were 
too low and too slow and that reporting requirements were poorly 
designed. To succeed, a new impact aid program must function better 
than the last one by stating clear guidelines, allowing states planning 
flexibility, and requiring less onerous reporting requirements.
    A large-scale legalization program would create millions of new 
legal residents whose status may result in more stable employment and 
higher income, which benefit them, while the concomitantly higher 
income tax payments benefit government entities. The additional 
services they need should be covered in part by fees for registering 
with the earned legalization program. Such fees should cover the 
program's administrative costs, defray social expenditures, and 
contribute to the New Americans Initiative to ensure longer term 
integration.
    Regardless of when immigration reform happens, states and 
localities face on-the-ground realities regarding new flows of 
immigration. It is time for the federal government to take a leadership 
role in making the integration process smoother for immigrants, state 
and local governments, and communities. Ultimately, all integration is 
local.

References

Downs-Karkos, Susan. ``Immigrant Integration in Colorado.'' Denver: The 
    Colorado Trust.
Illinois Coalition for Immigrant and Refugee Rights. For the Benefit of 
    All: Strategic Recommendations to Enhance the State's Role in the 
    Integration of Immigrants in Illinois: Joint Executive Summary, 
    Year One and Report of the New Americans Policy Council, Year One. 
    Chicago: Illinois Coalition for Immigrant and Refugee Rights, 2006.
Jensen, Leif. 2006. ``New Immigrant Settlements in Rural America: 
    Problems, Prospects, and Policies.'' Durham, NH: The Carsey 
    Institute, University of New Hampshire.
Meissner, Doris, Meyers, Deborah W., Papademetriou, Demetrios G., and 
    Fix, Michael. Immigration and America's Future: A New Chapter. 
    Report of the Independent Task Force on Immigration and America's 
    Future, Spencer Abraham and Lee H. Hamiltion, Chairs. Washington, 
    D.C.: Migration Policy Institute, 2006. Available at http://
    www.migrationpolicy.org/ITFIAF/index.php.
Singer, Audrey. 2004. ``The Rise of New Immigrant Gateways.'' 
    Washington, DC: The Brookings Institution.

    Ms. Lofgren. Thank you very much.
    Dr. Piehl?

    TESTIMONY OF ANNE MORRISON PIEHL, Ph.D., DEPARTMENT OF 
  ECONOMICS & PROGRAM IN CRIMINAL JUSTICE, RUTGERS, THE STATE 
                    UNIVERSITY OF NEW JERSEY

    Ms. Piehl. Thank you, Chairwoman Lofgren and Ranking Member 
King, for the opportunity to appear before the Subcommittee.
    Today I am pleased to testify about the academic literature 
on the relationship between immigration and crime. This 
literature, and therefore my testimony, is concerned with 
average behavior, so it emphasizes common crimes of violence 
and property.
    There are, to be sure, less common and more serious threats 
associated with terrorism, but those are addressed more 
directly with intelligence and enforcement.
    With regard to street crime, my remarks will conclude that 
the empirical research does not suggest that immigrants pose a 
particular crime threat. Rather, the evidence points to 
immigrants having lower involvement in crime than native-born 
Americans.
    The literature begins by noting that the addition of 
immigrants to the population, if immigrants commit any crimes 
at all, will by definition increase the total number of crimes 
in the United States. Academics have generally posed the 
relevant question as: do immigrants add to the crime risk in 
the population?
    The answer to this question would be ``yes'' if immigrants 
are more likely to commit criminal acts or if immigration 
causes the native born to increase their criminal behavior.
    It would be reasonable to expect immigrants to have higher 
levels of criminal activity compared to natives because 
immigrants have traditionally rated high on factors that have 
been strongly correlated with crime: higher levels of poverty, 
lower levels of education, urban residence, et cetera. Some 
have argued that immigration might increase the criminal 
activity of the native born if immigrants displace natives from 
work and promote urbanization.
    But at the same time, the current policy environment 
provides several mechanisms that are likely to reduce the 
criminal activity of immigrants. Legal immigrants are screened 
for criminal backgrounds. Non-citizens, legal or not, are 
subject to the increased punishment associated with deportation 
if the crime of conviction is a serious one. And illegal 
immigrants have an extra incentive to steer clear of law 
enforcement for even minor offenses.
    So now to the evidence. Several important studies have 
estimated the empirical magnitudes of these theorized 
connections. First, consider the impact of immigration on crime 
rates. This type of analysis aims to identify the total effect 
of immigration, regardless of whether it is the immigrants or 
the natives that are committing the crimes.
    In an analysis of the largest U.S. cities, Kristin Butcher 
and I found that in 1980's, cities that received more 
immigrants had the same average change in crime as cities 
receiving fewer immigrants. In the 1990's, the relationship was 
actually negative, where cities that received the most 
immigrants had a larger crime drop than cities receiving fewer 
immigrants.
    Other researchers have looked at this question by comparing 
border cities to non-border cities and immigrant neighborhoods 
to non-immigrant neighborhoods within the same cities, and all 
of these studies support the basic inference in my own work, 
that immigration is not associated with an increase in crime 
rates in a locality.
    Further evidence can be found in analyses of 
institutionalization rates of immigrants compared to those of 
natives. In an analysis of men age 18 to 40, using the United 
States Census, Kristin Butcher and I found that immigrants have 
much lower institutionalization rates, on the order of one-
fifth the rate of natives. And this gap has expanded over the 
past 20 years.
    It is important to be fair in the comparison, because 
immigrants by definition have had less time to be apprehended 
of crimes. And so we do some careful modeling work in that 
paper to try to make a fair comparison of immigrants and 
natives, and still conclude a large gap between the two.
    It is possible that the threat of deportation deters 
immigrant crime, but we conclude that deportation per se is not 
driving these results, because even citizens who are not 
subject to deportation look better than natives and 
increasingly so over time.
    Our interpretation of the results is that the process of 
immigration selects individuals who are less likely to be 
involved in crime. The best evidence of this is when we compare 
immigrants to native born individuals who have migrated across 
State lines, we find much less of a gap between the two.
    Differences in criminality have also been studied using 
survey data. In self-report surveys, we find that violent 
offending is lowest for new immigrants, is higher in the second 
generation and yet higher still in the third generation.
    But even if immigrants have lower criminal activity than 
native-born citizens, as we have heard already in earlier 
testimony today, the costs of law enforcement borne by State 
and local governments on behalf of immigrants can be 
substantial. In my written testimony, I provide some data 
showing the concentration of incarcerated immigrants in 
particular States. You find, not surprisingly, that California 
and Texas bear the brunt of the cost for that population.
    It is also worth noting that immigration provisions 
themselves may impose costs on States and localities as it 
restricts their ability to manage their own prison population 
through their usual mechanisms.
    In conclusion, there is no empirical evidence that 
immigrants pose a particular crime threat. In contrast, the 
evidence points to immigrants having lower involvement in crime 
than natives.
    [The prepared statement of Ms. Piehl follows:]
               Prepared Statement of Anne Morrison Piehl

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Ms. Lofgren. Thank you very much.
    Dr. Santiago?

  TESTIMONY OF DEBORAH A. SANTIAGO, Ph.D., VICE PRESIDENT FOR 
          POLICY AND RESEARCH, EXCELENCIA IN EDUCATION

    Ms. Santiago. Hello. Thank you. It is an honor to present 
here in front of you today.
    I want to note that I am with a national organization that 
focuses on Latino student success, not to the exclusion of 
others, but starting with Latinos, as sort of a footnote.
    My comments here today, however, are more general, because 
I am focusing on the broad costs and benefits of educating 
immigrant students, and I want to make sure that those students 
get service.
    Immigration policy in the United States is a Federal 
responsibility. We talked about that. However, the effects, 
both positive and negative, of immigration are concentrated in 
States and communities where immigrants lives. One of the most 
contentious issues between jurisdictions is the cost of 
educating immigrant students.
    Attention was captured in 1982 when the U.S. Supreme Court 
ruled in Plyer v. Doe that children are entitled to an 
education regardless of the immigration status.
    Given that the Federal Government provides only about 9 
percent of educational costs nationally, the majority of 
funding responsibility for immigrant education comes from State 
and local governments. No American institution has felt the 
effects of immigration more forcefully than the Nation's public 
schools. No set of American institutions is arguably more 
critical to the future success of immigrant integration in our 
country.
    Public education is unlike any other public benefit because 
of the role it plays in sustaining our political and cultural 
heritage.
    The main points of my testimony are as follows:
    In looking at the research, the majority of studies on the 
effects of educating immigrants confirm that State and local 
governments experience more cost than benefit for educating 
immigrants in single periods.
    Most studies that examine the effects of educating 
immigrants look at costs in a single period without considering 
the long-term effects of education as an investment with future 
benefits. For this, the methodologies are very diverse.
    Third, while the Federal Government provides some Federal 
support for educating immigrants to State and local school 
districts, there is no doubt that this support does not cover 
the entire costs of education for immigrants.
    And, fourth, while States and local governments incur more 
costs than benefits in the short term, they also accrue more 
direct benefits in the long term for their investment. 
Therefore, the appropriate Federal and State balance of funding 
for immigrant education remains contentious.
    Just a quick comment about some of the analysis that we 
were looking at. Numerous studies provide analysis of the 
educational costs the States incur in educating immigrant 
students in a single time period. For example, a study by the 
Federation for American Immigration Reform estimated that in a 
single year the cost of educating immigrant K-12 students 
nationally was almost $29 billion.
    This represents about 6 percent of K-12 expenditures 
nationally. In comparison, the Federal Government provided 
about $41 billion for elementary and secondary education while 
State and local governments provided about $200 billion each, 
about 45 percent.
    So when education is treated as a cost item in a single 
period's fiscal analysis, the benefits, both tangible and 
intrinsic, are not considered. Two seminal National Academy of 
Science reports stress the importance of looking at the effects 
over longer periods of time and including at least three 
generations when calculating the effects of education. 
Otherwise, analysis can misrepresent the ultimate benefit that 
States and local communities gain from a more educated 
immigrant workforce.
    Fiscal impact analyses are incomplete if they include only 
the cost of educating children and not the higher earnings and 
tax paying capacity of those children in future years. Further, 
there may be an even larger fiscal impact in the long-term for 
not educating immigrants. A RAND study notes that higher levels 
of education translate into lower public expenditures over an 
individual's lifetime in the form of revenues saved in public 
welfare, health and law enforcement programs, and revenues 
earned from increased taxes and contributions to Medicare and 
Social Security.
    The majority of tax revenues paid by immigrants go to the 
Federal Government, but the larger share of public service 
costs related to immigration are at the State and local level. 
Therefore, the fiscal balance of educating immigrants can be 
positive at the Federal level but negative at the State and 
local government level. Because immigration policy is a Federal 
responsibility, the Federal Government does provide some 
financial assistance to States and school districts, although 
the amount of financial support does not cover the majority of 
educational expenses.
    In title 3 of the No Child Left Behind Act, the Federal 
Government provides support to States to educate English 
language needs as well as immigrant students. In 2007, this 
included about $670 million to be distributed to States where 
up to 15 percent could be used for immigrant education 
programs. Of the top three States with immigrant students, 
California could use up to $25 million, Texas $13 million and 
New York $7 million. However, studies have shown that education 
the students costs in the multiple billions of dollars to each 
State.
    Some would want to prevent immigrants from receiving a 
public education because of their concern for the staggering 
cost of social programs. However, it is critical that State and 
local governments consider the benefits as well as the costs 
for educating these students. Higher earnings are strongly 
associated with increasing levels of educational attainment for 
students, regardless of immigrant status.
    It should also be noted that States also incur costs for 
educating native-born students and do not see the benefit of 
this investment until years later as well.
    The skill level of current immigrants and their children 
will be determined by the quality of their K-12 education 
experience and by their ability to get a college education in 
the future. If immigrants and their children experience rising 
levels if educational attainment, their presence can be a 
competitive advantage for States and localities.
    The total fiscal impact of educating today's immigrants and 
their children includes fiscal effects currently and to the 
future, which are inferred but cannot be calculated in the 
present.
    Thank you.
    [The prepared statement of Ms. Santiago follows:]
               Prepared Statement of Deborah A. Santiago

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Ms. Lofgren. Thank you very much.
    Mr. Rector?

    TESTIMONY OF ROBERT RECTOR, SENIOR RESEARCH FELLOW, THE 
                      HERITAGE FOUNDATION

    Mr. Rector. Thank you for having me back to talk about the 
fiscal cost of low-skilled immigrants at the State and local 
level.
    As you know, I calculated the cost of that type of 
immigrant, immigrants without a high school degree, for overall 
Federal, State and local, finding that they received about 
$30,000 a year in government benefits, paying in about $10,000 
in taxes, and I counted every single tax that Mr. Gutierrez 
could mention. I even got their lottery ticket purchases with a 
very generous assessment.
    And so you have a gap there of $19,500. And if you go down 
to the State level, you get basically the same picture, about 
$14,000 in benefits, about $9,000 in taxes; about a gap of 
about $5,000. If those figures are correct, then low-skill 
immigration constitutes an unfunded mandate on States and 
localities.
    Let's talk a little bit about methods, because we have 
different studies here. The methods I use are the methods used 
by the National Academy of Sciences. What I count are what the 
National Academy of Sciences counted. I don't count defends, I 
don't count interest, other things that have been charged 
against me. I just count.
    And how do I count? Well, it is real simple. I go to the 
Census Bureau. If a low-skill immigrant says they got a food 
stamp, I count the value of the food stamp. I don't have any 
assumptions. I am just a counter. And it is very simple. You 
count Social Security. You count Medicaid. You count public 
education.
    And one of the very strong points of the way I do this 
thing is if you take my methods and you apply them to the 
entire U.S. population, what happens? You get tax revenues that 
exactly equal all the tax revenues in the United States and 
expenditures that exactly equal all the expenditures in the 
United States, because I didn't leave anything out, and most 
studies leave things out selectively, and that drives what they 
get.
    What I find is exactly what the National Academy of 
Sciences found, that there is certain types of people when you 
bring them in the country they cost the taxpayer a fortune. 
Let's start with, say, bringing in a 65-year-old and putting 
him on SSI. Gosh, pretty hard to make that one a financial 
winner for the taxpayer.
    But also, when you bring in somebody that is a high school 
dropout, there is no study that exists that shows that that 
individual is going to pay more in taxes then they take out in 
benefits or even come close to it.
    If my figure of $30,000 a year is even remotely correct, 
that exceeds the earnings in these households. How could they 
possibly pay taxes? And the only way that you can make them 
look fiscally attractive is to take large things off the books. 
Let's take education off the books. Now, there is some credit 
in doing that, because education for those kids does have a 
kind of mitigating effect on future losses in the future.
    But I would simply say, the National Academy of Sciences 
used the same model I did, and they looked at those high school 
dropout families and they looked at all of the generations that 
would follow. They looked at it for 300 years. And even after 
300 years, the fiscal loss of the first generation of high 
school dropouts was so extreme, that the net present value 
never came to zero.
    Now, that is a pretty rotten investment. You invest money 
and 300 years later you still haven't made one penny on your 
investment. That is not a good deal and that is exactly what 
this sort of situation is.
    I do think that it does make sense that once an immigrant 
is here, you do need to educate the kids to mitigate future 
costs. It doesn't mean that child is going to be a net tax 
contributor. It doesn't mean the child will make up the deficit 
of the first generation, but you will mitigate those costs. But 
that is a very different decision than deciding whether you are 
going to admit millions of those low-skill families in the 
first place.
    And I would simply say, when we talk about positive 
investments, that any investment that doesn't make back the 
initial cost of the investment within 25 years is a rotten 
investment, and there are many other investments we could make 
besides bringing in low-skill immigrants and charging that cost 
to the U.S. taxpayer. Taxpayers cold spend more on the 
education of their own children. Taxpayers could invest in the 
stock market. Any of those investments would have returns 
infinitely larger multiples of return than bringing in 
individuals who obviously, at least in the first and second 
generation, are going to take much more out of the taxes than 
they put in.
    I would say that I would like to make some more comments in 
the question period about amnesty, because the tax cost that I 
am talking about here today are merely a drop in the bucket 
compared to what you get when you grant amnesty and the right 
to get into Social Security for illegal immigrants that are 
here today.
    [The prepared statement of Mr. Rector follows:]
                  Prepared Statement of Robert Rector

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Ms. Lofgren. Thank you, all of the panelists, for your 
testimony.
    We will now begin with questions for our panelists, and I 
will begin.
    Dr. Piehl, I found your testimony extremely interesting 
because the testimony that you have given is very much at 
variance with some of the casual things that are said about 
crime and immigrants, and I was particularly interested in the 
percentage of the population incarcerated.
    Some individuals have suggested that a very large 
percentage, 19 percent, 20 percent, of all prisoners in Federal 
custody are non-citizens. In fact, one of our Committee Members 
who is not here today suggested that. But your analysis 
actually seems to indicate otherwise.
    Can you explain the disparity? Is it people who are being 
held for immigration violations or how do we explain this?
    Ms. Piehl. I appreciate the question.
    The statistic is often quoted in the public press as well, 
that we have a very high proportion of Federal inmates who are 
immigrants (who are ``non-citizens'' is the way the data are 
collected). And that is in fact true. The data that I have from 
the Bureau of Justice statistics that are included in my 
testimony show that 19 percent of the population at any given 
time in the Federal prison system are non-citizens.
    There are two reasons that that figure is misleading, 
though, as a synopsis of the larger issue of immigration and 
crime. One is that violations of immigration law are, by 
definition, as you know, violations of Federal law. So Federal 
prison is the only place for people who violate immigration law 
to be housed.
    If you look at the broader population of prisoners, you 
find the proportion is much lower. So if we are thinking about 
State populations, you find that the percentage of non-citizens 
is, I think, 6.4 percent. It is in the----
    Ms. Lofgren. I was interested that in your study, the 
population of California is 30 percent foreign born, but in the 
State prison 10 percent foreign born.
    Ms. Piehl. That is almost correct.
    Among the California system, 10 percent are non-citizens, 
but California, because its system is so large, contains 30 
percent of all non-citizens who are incarcerated in State 
prisons. So when you hear talk about the SCAAP provisions, for 
example, that is showing you the disproportionate----
    Ms. Lofgren. That is why the California delegation is for 
SCAAP funding.
    Ms. Piehl. Exactly.
    Ms. Lofgren. I wonder if I could ask Dr. Singer, your 
testimony was also very interesting and something that I hadn't 
actually focused on, which is where are people going and has it 
changed, and that may also have an impact on the discussion 
that we are having nationally on immigration.
    You mentioned the need to have actual coordinated efforts 
to help integrate people and help immigrants become Americans. 
We had a very interesting hearing on that yesterday. You said 
that Canada does something. Can you give us just an insight 
into what Canada does to help on that?
    Ms. Singer. Sure.
    Let me first start by saying that I think one of the 
problems with not having a national coordinated strategic 
system is that across places there is a lot of variation, and 
this kind of fragmented approach to how we receive immigrants 
and what kinds of things they are entitled to or how they are 
served or what we expect of them can be very different in 
places right next door to each other.
    In Canada, part of their program is to give people services 
and training right up front, so people are received in English 
and/or French, since they have two national languages, are part 
of the integration program. Referral services for community 
organizations and local government services are also part of 
that package.
    Ms. Lofgren. I see that my time is about up. I did want to 
thank Dr. Santiago also for being here. And I guess all I can 
say is there is no greater bargain, no greater investment you 
can make, than education. We all know that.
    And although we look at our budgeting here and even put it 
to one side from the immigration question, you know that it is 
a cost but the financial rewards are reaped many, many fold for 
those investments. And I thank you for your powerful testimony 
to that impact.
    I am interested, Mr. Rector, and I hope at some other time 
that we will be able to--perhaps in my written questions I can 
follow up with some of the issues and questions that I have. 
But I know that the time is late.
    You have been here all afternoon and I don't want to 
violate the red light, so I will turn to the Ranking Member.
    Mr. King. Thank you, Madam Chair.
    I want to take the first opportunity to thank all the 
witnesses here. It means a lot to this country that people are 
willing to come forward and spend your time, make this 
commitment.
    I am not going to be able to ask questions from everybody. 
I would love to sit down and have dinner with you all, because 
it would be fascinating to have this conversation engaged.
    So I am going to first just focus on Dr. Piehl.
    I hear your testimony and I view it as an academic 
testimony. And I think you spent significant time in this. I 
think it is a real investment.
    Have you had an opportunity--I have a study in my hand. It 
is an April GAO study that deals with criminal aliens that are 
incarcerated. As you can see, I have looked this over a few 
times.
    Ms. Piehl. Is that from 2005?
    Mr. King. Yes, 2005.
    Ms. Piehl. Yes, I have it, but I haven't looked at it 
recently.
    Mr. King. In there, it says that the population of our 
Federal penitentiaries that is criminal aliens is 27 percent. 
And so we are only 8 percent off in the Federal part of this.
    Do you know of any inmates in the Federal penitentiary that 
are there because they were unlawfully present in the United 
States? And I mean that because I think we need to weigh what 
that means. And if they are, I am going to submit that it would 
be because that was the violation that they could convict them 
of. Probably they weren't just someone who was going to pick 
tomatoes.
    Ms. Piehl. There are people who are in there under that 
crime, and it is quite possible that that was the crime of 
conviction but not the original intent. Right.
    Mr. King. And in your testimony, I am going a little bit 
from memory here, you state that in conclusion there is no 
empirical evidence that immigrants pose a particular crime 
threat. Have you looked at the violent death rates in countries 
that are south of our border, Mexico and thereon south? And are 
you familiar with the relationship with violent crime and death 
rates in those countries compared to that in the United States?
    Ms. Piehl. Broadly.
    Mr. King. And if I could stipulate some of those as from my 
memory, U.S. violent death rate is 4.28 per 100,000 and 
Mexico's is 13.2, so an approximately three-times higher 
violent death rate there. It gets worse as we go south. 
Honduras is nine-times. El Salvador is unpublished, presumably 
because it is not a very flattering number. Columbia's is 15.4 
times the violent death rate of the United States.
    When you add to that that some of those people that are 
coming here are bringing the $65 billion worth of illegal drugs 
into the United States and I think you referenced one of the 
points that is important demographically, that many of them are 
young men who really carry with them society's pathologies. I 
am just a man, I will say that.
    And so when you add that all up, how can one conclude that 
illegal immigrants represent a lower percentage of the crime? 
And do you have anything in your studies that actually defines 
the difference and studies illegal immigration as opposed to 
legal immigration, because I think we do recognize that if you 
are here under probation, so to speak, waiting to be legalized, 
you are likely to be more in compliance with the law than if 
you are here illegally in the shadows.
    Ms. Piehl. Those are about eight or nine good questions. I 
think I lost track.
    So let me start with the last one. We don't really have 
good data to study the questions that you ask and the questions 
that I ask, so all of the studies that I reported on here are 
ones that are doing the best method that they can with the data 
that they have to bring evidence to bear on what are key, 
quality questions.
    One of the most important omissions is that we never have 
data collected by status of immigrant, so we don't know whether 
people are illegal or not, or how they came, you know, what 
their visa status was.
    Mr. King. We merge the two.
    Ms. Piehl. So all the studies that I reported either 
defined people based on country of birth or on citizenship 
status. We are using both of those in different cases as----
    Mr. King. You don't draw a distinction between legal and 
illegal in any of the testimony that you have here. So it is 
merged together and it is blurred.
    Ms. Piehl. That is correct. And that is a gap in the 
literature--there is no way to see filling that.
    Mr. King. And I have found that as I go to the States and I 
ask them their incarceration rates for criminal aliens versus 
illegal aliens, lawfully presents, nation of origin, they 
really don't have records that they can give me that give me 
confidence that they are keeping them in a fashion that I can 
count on. Would that be your experience, too?
    Ms. Piehl. That would be correct. And you also would need 
reliable population estimates in order to denominate those to 
figure out relative risk.
    Mr. King. You are an intellectual and honest lady.
    I just turn to Mr. Rector for a comment of any gaps that 
you might have heard in this testimony. Would you like a 
comment quickly?
    Mr. Rector. Well, I would just say that when you are really 
looking at these costs, the most important thing you have to be 
looking toward is the cost of amnesty. And with amnesty, what 
you are actually talking about is taking about 9.3 million 
individuals who are not currently eligible for Social Security 
and Medicare and ensuring that they go into those systems.
    Very few of the illegals are currently elderly, but if you 
grant amnesty they are all going to stay here. If you move 9.3 
million people with a normal mortality rate up into retirement, 
the next cost of that to the taxpayers by the time they hit 
retirement will be about $17,000 per person per year. About 9 
million people times the time they would spend in retirement, 
that is $2.5 trillion.
    And that cost will come smashing into our fiscal coffers at 
exactly the time that Social Security is already going 
bankrupt.
    There is no possible way out of this. How in the world can 
you add in 9 million people, 60 percent of whom lack a high 
school degree and have paid very little in taxes in, into these 
types of systems, into Medicaid, into SSI, into Social 
Security, without gargantuan costs in the future?
    And I am just astonished at how irresponsible it is for the 
Congress to be considering this type of amnesty without even 
beginning to look at that type of future cost.
    Mr. King. Thank you, Madam Chair. I yield back.
    Ms. Lofgren. The gentleman's time is expired.
    The gentlelady from Texas, Ms. Jackson Lee, is recognized 
for 5 minutes.
    Ms. Jackson Lee. I thank the Chairwoman, and I thank the 
Ranking Member.
    We always do that, because we have had a series of hearings 
and we hope that our appreciation reflects on the hard work of 
their staff as well.
    Let me thank the witnesses for their testimony and forgive 
me for having to pose rapid-fire yes-no or brief answers in 
order to help me understand and to frame the case of this 
particular hearing.
    Let me share one statement that finds itself in our 
memorandum that indicates despite the overall benefits of 
immigration to the Nation, most scholars tend to concur that 
illegal immigration can have deliterious effects on States and 
localities. It is those effects that we will address during 
this hearing.
    I just want to focus on those sentences and begin my line 
of questioning.
    First of all, I am from Houston, Texas, and Harris County 
has a $1.5 million SCAAP grant that deals with reimbursement 
for the services or needs of those in our population that are 
undocumented. There is no doubt that our hospitals, our 
schools, our other social services can stand more resources. 
Period. They certainly can stand more resources for those of us 
who are large States that have a large population of 
undocumented individuals.
    Interestingly enough, the population of naysayers in Harris 
County is very small. There have been a number of elected 
officials who tried to do the blame game and certainly we have 
had a number of amendments about police arresting those who are 
undocumented. We have some issues with the jail. But we have 
not taken to the street to suggest that there is not also a 
positive to many who happen to be undocumented, who happen to 
be hardworking, fulfilling various needs in our community, 
whether it be if you will low-skilled to other skills, and 
young people in our schools who are striving for the American 
dream.
    So let me just say that the frame is illegal immigration 
can be deliterious, but if we fix the system and begin to 
document so that individuals are out of the shadows, are paying 
taxes, may even be able to pay for some sort of hybrid health 
care, may be eligible for S-CHIP, is that not a better 
approach?
    Dr. Singer?
    Ms. Singer. Well, I think you hit on all of the key points 
in terms of this being an immediate need for some places where 
there is a new influx of immigrants, but it is also a long-term 
issue in a place like Houston, that is used to bringing in 
people.
    Ms. Jackson Lee. But will documentation for those who are 
now undocumented help to move us toward fixing the problem, 
because they become contributing, I hope? This is on the--I am 
not approaching the criminal issue right now. I am approaching 
those that may be using our social services. And my time is 
limited, so I am trying to get a quick yes or no.
    Ms. Singer. I think with legal status, we have seen in the 
past in the last program, 1986, that workers were able to 
experience some economic mobility because they were able to 
come out of the shadows, learn English and move up in their 
jobs.
    Ms. Jackson Lee. Dr. Piehl, is that correct? Yes or no on 
providing some pathway to citizenship to cure part of this 
deliterious impact.
    Ms. Piehl. It may, but my testimony doesn't directly 
address that point.
    Ms. Jackson Lee. Dr. Santiago?
    Ms. Santiago. Yes.
    Ms. Jackson Lee. Thank you.
    Dr. Rector, you keep harping on amnesty. All of the bills 
that I have seen, all of the thought that I have seen has been 
a methodical structure of compensation, fines and other 
penalties or other hurdles. That is not amnesty. And the 
question I would ask, when you say that this has a negative 
impact on our economy, we have a large agricultural industry. 
Farm workers I consider a very respectable, if you will, 
profession or need.
    What substitute would you have for those who happen to be 
utilized--and again, this not denigrating, because I would open 
those opportunities for any American who chooses to have it. I 
don't think any farm denies them. But what substitute would you 
have for that and what would you respond to the constant 
refrain that we try to explain to those who keep using the term 
``amnesty'' that this is not the amnesty of 1986, when you have 
a series of penalties and a very extensive wait? In fact, I 
understand the Senate bill has probably projected the wait to 
be some 13 years, the agreement that has just been put forward.
    Mr. Rector. Well, I think that you have to really look and 
say, okay, now, agriculture might be an area where a guest 
worker program might be viable. But if you allow the guest 
worker to come in with a family and obtain citizenship, then 
that is going to impose about an $18,000 a year cost on the 
taxpayers in any given State. How are you going to pay for 
that? You are going to have to pay for that in some way. And 
you have to take that in as a rational consideration.
    I would say when you grant amnesty, or grant citizenship, 
whatever you want to call it, the costs obviously go up much 
farther than the taxes, because there is a little bit of off-
the-books work here for illegals. So they are not paying Social 
Security tax. But that, for these workers, is going to be 
$1,000 or $2,000 a year that you would ante in if they started 
paying Social Security tax.
    I have costed this out very carefully. On the other hand, 
if you start making them eligible for, as you said, S-CHIP, 
food stamps, public housing and on and on and on, the cost of 
that are extraordinarily large, and indeed I mean the fines in 
these bills are so trivial in comparison to the additional 
costs and benefits, they are not even a grounding error.
    Ms. Lofgren. The gentlelady's time----
    Ms. Jackson Lee. My time has ended.
    Let me just say, Chairwoman, Mr. Rector's history is, as he 
has put forward, is one interpretation. My interpretation of 
the thousands upon thousands of immigrant families who came in, 
documented or undocumented, in the 1900's, who became 
contributors to society, even if they had to take a step on the 
social service step in the early part of their history, they 
did ultimately become contributors. And that is what we can 
look for, for a documented system that documents people and 
regularizes their existence.
    I yield back to the gentlelady.
    Ms. Lofgren. Thank you. The gentlelady's time has expired.
    I would like to thank all of the witnesses for sticking 
with us here this afternoon, for your patience with us for 
being an hour late because of the Committee markup and our 
vote.
    Without objection, Members will have 5 legislative days to 
submit additional written questions for you, which we will 
forward. And we ask that if you are able to respond as promptly 
as possible, we would sure appreciate it.
    Without objection, the record will remain open for 5 
legislative days for the submission of any other additional 
materials.
    I think the testimony today has been very helpful, 
illuminating some of these issues on comprehensive immigration 
reform. I know it will prove valuable to us as we move forward 
these next 6 weeks or so when we hope to actually come to a 
conclusion on these major challenges that face us.
    I would like to extend an invitation to anyone within 
hearing to attend our next hearing on comprehensive immigration 
reform, which will be tomorrow morning at 9 a.m. in the room 
downstairs, Room 2141, during which we will explore the future 
of undocumented students and immigration reform.
    And on next Tuesday at 2 in the afternoon we will hear 
prospectives on immigration reform from faith-based and 
immigrant communities, and that will also be in Room 2141.
    With that, my thanks again for your donation of your time 
and your wisdom.
    This hearing is adjourned.
    [Whereupon, at 5:53 p.m., the Subcommittee was adjourned.]
                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

  Prepared Statement of the Honorable Steve King, a Representative in 
 Congress from the State of Iowa, and Ranking Member, Subcommittee on 
Immigration, Citizenship, Refugees, Border Security, and International 
                                  Law
    Madame Chair, thank you for holding this hearing.
    While immigration policy enforcement is supposed to be a federal 
responsibility, much of the burden caused by mass immigration falls on 
the states and localities in which the immigrants, legal and illegal, 
settle.
    This Subcommittee and the Full Committee have examined the effects 
of immigration on states and localities on a number of occasions. Most 
recently, last August in San Diego, CA, the Full Committee explored the 
impacts that the Senate-passed Reid-Kennedy amnesty bill would have on 
American communities at the state and local level.
    In San Diego we heard testimony that Los Angeles County is being 
buried with the healthcare, education, criminal justice and other costs 
associated with illegal immigration.
    We also heard from a witness from the University of Arizona Medical 
Center in Tucson who said that providing care to the uninsured, 
uncompensated poor and foreign nationals cost the hospital $30 million 
in 2006 and $27 million in 2005. Few U.S. hospitals can continue to 
provide adequate care for American citizens, with such an enormous 
burden.
    More than a decade ago, at a hearing on this same topic, Michael 
Fix of the Urban Institute told the Judiciary Committee that ``[T]here 
is a broad consensus in the research that the fiscal impacts of illegal 
immigrants--that is, their impacts on local, state and federal 
taxpayers--are negative, generating a net deficit when they are 
aggregated across all levels of government. . . .''
    Because of these burdens and the frustrations that recent 
Administrations, including the present one, have essentially abdicated 
enforcement of immigration law, many States and localities have decided 
to try to fix the problems themselves. They have considered and often 
enacted legislation aimed at reducing the negative impacts of illegal 
immigration.
    According to the National Conference of States Legislatures, as of 
April 13, 2007, 1,169 immigration-related bills and resolutions have 
been introduced in legislature in all 50 states. That is more that 
twice the number introduced last year. The bills touch on every 
immigration-related policy from receipt of public assistance, to 
education to voting.
    For instance, just last week the Oklahoma Governor sign into law a 
bill that requires state and local agencies to verify the citizenship 
and immigration status of applicants for state or local benefits.
    In March, the Idaho Governor signed into law a bill that requires 
the verification of lawful presence in the United States in order to 
receive public benefits.
    And this week residents of Farmer's Branch, TX, a Dallas suburb, 
recently approved, by 68 percent to 32 percent, an ordinance that 
requires apartment managers to verify that renters are U.S. citizens or 
legal immigrants before leasing to the property.
    The cost of educating the children of illegal immigrants, whether 
the child is U.S. born or foreign born, is perhaps the largest, both 
fiscal and societal, cost at the state and local level. Not only are 
schools overcrowded because of illegal immigrants, but since K-12 
education is federally mandated, states and localities have no choice 
but to pay the required fiscal costs. Those costs equal $7,700 per 
student per year--an amount that most illegal immigrants do not cover 
with the taxes they pay.
    Uncompensated health care for illegal immigrant families is also a 
huge burden on states and localities. According to the U.S.-Mexico 
Southwest Border Counties Coalition, hospitals in the southwest border 
counties of Texas, New Mexico, Arizona, and California alone incur 
costs of $190 million per year for uncompensated emergency medical 
treatment of illegal immigrants. Many hospitals around the country have 
already been forced to stop providing medical specialties, like trauma 
care, or have closed down completely because of the budgetary strains.
    And the law enforcement costs of illegal immigration are also 
substantial and increasing. According to the GAO, 28 percent of inmates 
in Federal and state prisons are criminal aliens. In the state of New 
York, it is estimated that the uncompensated cost of incarcerating 
criminal aliens is $165 million a year--money that I am sure New York 
taxpayers would like not to have to spend.
    I am pleased that we are exploring this issue today and note the 
importance of creating immigration policy that is good for the American 
people--not just certain interest groups.
    And before I close, I would just like to note that Robert Rector, 
Senior Research Fellow at The Heritage Foundation, is one of the 
witnesses today. Not only will he be testifying as to the fiscal 
impacts of immigration on states and localities, but he is more than 
willing to address any concerns Members of the Subcommittee may have 
about his recent research, such as those expressed in a recent 
Immigration Policy Center brief.

                                <F-dash>

       Prepared Statement of the Honorable Sheila Jackson Lee, a 
    Representative in Congress from the State of Texas, and Member, 
 Subcommittee on Immigration, Citizenship, Refugees, Border Security, 
                         and International Law
    Today we continue these series of hearings dealing with 
comprehensive immigration reform. This subcommittee previously dealt 
with the shortfalls of the 1986 and 1996 immigration reforms, the 
difficulties employers face with employment verification and ways to 
improve the employment verification system. On Tuesday May 1, 2007 we 
explored the point system that the United Kingdom, Canada, Australia, 
and New Zealand utilize, and on May 3, 2007 the focus of the discussion 
was on the U.S. economy, U.S. workers and immigration reform. Last week 
we took a look at another controversial aspect of the immigration 
debate, family based immigration. Today we continue the vital task of 
eliminating the myths and seeking the truth. Yesterday's hearing dealt 
with probably the most crucial aspect underlying the immigration 
debate, an immigrant's ability to integrate, and assimilate into 
American society. Today we will tackle another pressing topic, the 
practical issue of the impact of immigration on States and Localities.
    While many will argue that illegal immigration is a national 
epidemic, truth of the matter is that our local municipalities are the 
entities that have to address the needs of not only the undocumented 
population, but also there documented immigrants, and United States 
Citizens. Plenty of individuals in the anti-immigrant camp argue that 
these groups of undocumented individuals are placing a strain on the 
local hospitals, public schools, and social service programs. I can 
recall a recent CNN news report that documented children who live in 
Mexico, but attend school here in the States. Some will use this 
anecdotal evidence to suggest that it is a microcosm of the type of 
strain illegal immigrants place on our Localities, arguing that the 
parents of these kids do not pay property taxes and therefore their 
kids should not receive the benefit of an American public school 
education, despite the fact that these children are United States 
Citizen.
    As I just mentioned many in the anti-immigrant camp will argue that 
the same strain is being placed on our hospitals, jails, and social 
services. They complain of overcrowded emergency rooms, and limited 
access to social service programs due to the influx of illegal 
immigrants. Therefore, this hearing like all our previous hearings will 
seek to debunk the myths associated with illegal immigration, and 
expose the facts about the impact that illegal immigration has on 
States and Localities. Allow me to share a sample of those facts with 
you. With regards to the strain on local jails, the Harris County Jail 
does receive some federal assistance in the form of a $1.5 million 
dollar SCAPP grant to help house illegal immigrants. That is not to say 
that the Harris County Jail does not suffer from overcrowding, the 
record is established on that fact, but it is not the result of an 
influx of illegal immigrants.
    I believe that through the thoughtful and insightful testimony from 
the previous panels of experts, we have established a solid foundation 
of facts. The primary fact is that this undocumented population and 
this new wave of immigrants have benefited the United States economy. 
Their presence generates small businesses, which generates local tax 
revenue. The creation of low-skilled jobs creates the need for high 
skill jobs, and the task that low skilled workers perform, (i.e., 
landscaping, service industry jobs) makes life easier for high-skilled 
workers and allows them to work more efficiently. In all I believe that 
we can agree on the positive impact that immigrants have on our Nation 
as a whole, culturally and financially, however a closer look at the 
impact on localities does deserve particular attention because these 
entities do not have the resources that the federal government has.
    There are costs to taxpayers that result from illegal immigration. 
Estimates and methodologies vary as to those costs, but most scholars 
agree that illegal immigrants do create certain fiscal costs. State and 
local governments are frustrated by the costs incurred locally and the 
lack of federal government action to address these problems through 
immigration reform. As of April 13, 2007, state legislators in all of 
the 50 states had introduced at least 1169 bills and resolutions 
related to immigration or immigrants and refugees. This is more than 
twice the total number of introduced bills (570) in 2006. In fact in my 
home state of Texas, a town called Farmers Branch just enacted a law 
that made it illegal for landlords to rent to illegal immigrants. Given 
the extensive testimony that we heard about the problems that 
sophisticated corporate employers such as the Swift Meat Packing Co. 
have when they try to verify an employee's status, can you imagine the 
trouble that an individual landlord will have. If a federal system like 
the Basic Pilot Program is riddled with problems, and subject to fraud, 
so will the individual landlord. Reactionary policies and laws such as 
the one passed by the Farmers Branch city council is not the answer.
    I look forward to the testimony from today's witnesses.
 Prepared Statement of the Honorable Janet Napolitano, Governor of the 
  State of Arizona, on ``Comprehensive Immigration Reform: Impact of 
Immigration on States and Localities,'' submitted by the Honorable Zoe 
    Lofgren, Chairwoman, Subcommittee on Immigration, Citizenship, 
            Refugees, Border Security, and International Law

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

``The Fiscal Impact of Immigration Reform: The Real Story,'' by Daniel 
 Griswold, Director, Center for Trade Policy Studies, Cato Institute, 
                              May 21, 2007

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

       Letter from the National Association of Counties and the 
                       National League of Cities
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

       Prepared Statement of the Fair Immigration Reform Movement

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Prepared Statement of the Honorable Steve DeBenedittis, Mayor, 
                        the Town of Herndon, VA

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


  ``Dollars without Sense: Underestimating the Value of Less-Educated 
  Workers,'' by Walter A. Ewing, Ph.D. and Benjamin Johnson, a policy 
                 brief of the Immigration Policy Center

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre></body></html>
